App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
J.G., by and through his
Parents, Howard and
Denise Greenberg; et al,
Plaintiffs-Appellants,
v.

No. 18-16538
D.C. No.
1:17-cv-00503-DKW-KSC
MEMORANDUM*
(Filed Jun. 27, 2019)

STATE OF HAWAII,
Department of Education;
et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Hawaii
Derrick Kahala Watson, District Judge, Presiding
Argued and Submitted June 10, 2019
Honolulu, Hawaii
Before: THOMAS, Chief Judge, and CALLAHAN and
CHRISTEN, Circuit Judges.
J.G., by and through his parents, brought suit against
the Hawaii Department of Education (DOE), challenging
his newest Individualized Education Program (IEP).

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
We have jurisdiction pursuant to 28 U.S.C. § 1291, and
we affirm.1
1. J.G.’s parents bear the burden of proof. In
cases arising under the Individuals with Disabilities
Education Act, “the burden of persuasion lies where it
usually falls, upon the party seeking relief.” Schaffer ex
rel. Schaffer v. Weast, 546 U.S. 49, 58 (2005). Although
the new IEP changes J.G.’s placement and thereby
changes the status quo, J.G.’s parents are challenging
the new IEP, meaning they are the “party seeking relief ” and therefore bear the burden of proof. See id. at
62 (“The burden of proof in an administrative hearing
challenging an IEP is properly placed upon the party
seeking relief. In this case, that party is [the student],
as represented by his parents.”).
2. The district court correctly ruled that the administrative hearing officer did not deny J.G.’s parents
their statutory right to present evidence by declining
to conduct a site visit to the Maui Autism Center. J.G.’s
parents did not show that they were prejudiced by the
absence of the site visit, as they were not otherwise
precluded from introducing evidence about the facility.
They were free to introduce pictures, diagrams, and
testimony about the Maui Autism Center, and there is
no indication that documentary and testimonial evidence was insufficient to convey the nature and quality
of the facility.

1

Because the parties are familiar with the facts, we do not
recount them in detail here.

App. 3
3. The record does not show that J.G.’s placement
in Po‘okela was predetermined or that his parents
were denied the opportunity to meaningfully participate in the formation of his IEP.
J.G.’s parents argue that one of the teachers at
Po‘okela told J.G.’s parents that Principal Francoise
Wittenburg had previously told the teacher that J.G.
would be attending Po‘okela. Principal Wittenburg,
however, denied that claim at the hearing. The hearing
officer found that the principal’s testimony was credible, and the parents have not identified any basis for
second-guessing that determination.
J.G.’s parents’ other arguments also failed to show
that the DOE predetermined the outcome of his placement; the sequence of events they describe is consistent with working through and eliminating other
possible options. Accordingly, it was not clearly erroneous for the district court to decide that DOE did not
predetermine J.G.’s placement.
J.G.’s parents argue that they were denied the opportunity to meaningfully participate because they
were unfamiliar with Po‘okela and it was not proposed
until the final IEP meeting. It is admittedly concerning
that the parents of an autistic child with severe sensory issues were not afforded the opportunity to visit
the new facility before the DOE decided to place the
child there. But the DOE offered J.G.’s parents a tour
of Po‘okela and agreed that the first order of business
will be the development of a transition plan to accommodate any issues that may exist. Moreover, the IEP

App. 4
meeting participants spent at least half an hour at the
last IEP meeting discussing Po‘okela and J.G.’s parents’ preference for the Maui Autism Center. And although J.G.’s parents had not visited Po‘okela, they
raised specific concerns about the location, number of
students, and the school’s autism resource teacher. We
conclude that the district court did not err in finding
that J.G.’s parents were not denied the opportunity to
meaningfully participate.
4. Last, the record does not show that the new
IEP substantively will deny J.G. a free appropriate
public education (FAPE). Even accepting J.G.’s parents’ arguments about Po‘okela’s flaws and the progress J.G. has made at the Maui Autism Center, they
have not shown that, once an appropriate transition
plan is developed, J.G. cannot receive a meaningful educational benefit at Po‘okela or that his curriculum
cannot be implemented there. Endrew F. v. Douglas
Cty. Sch. Dist., 137 S. Ct. 988, 999 (2017) (“[T]he question is whether the IEP is reasonable, not whether the
court regards it as ideal.”); see also J.W. ex rel. J.E.W. v.
Fresno Unified Sch. Dist., 626 F.3d 431, 439 (9th Cir.
2010) (“[A]ppropriate public education does not mean
the absolutely best of potential-maximizing education
for the individual child.”) (internal quotation marks
omitted)). Moreover, they have not shown that Po‘okela
is not the least restrictive environment. Accordingly, on
this record, we affirm the district court’s decision.
AFFIRMED.

App. 5
UNITED STATES DISTRICT COURT
DISTRICT OF HAWAII
J. G., BY AND THROUGH
HIS PARENTS, HOWARD
AND DENISE GREENBERG,
HOWARD GREENBERG,
and DENISE GREENBERG,
Plaintiffs,
vs.
STATE OF HAWAII,
DEPARTMENT OF
EDUCATION, DENISE
GUERIN, PERSONALLY
AND IN HER CAPACITY
AS DISTRICT EDUCATION
SPECIALIST, and
FRANCOISE WHITTENBURG,
PERSONALLY AND IN HER
CAPACITY AS PRINCIPAL
OF LOKELANI
INTERMEDIATE SCHOOL,

CIV. NO. 17-00503
DWK-KSC
ORDER AFFIRMING
THE DECEMBER 20,
2017 DECISION OF
THE ADMINISTRATIVE
HEARINGS OFFICER
(Filed Aug. 7, 2018)

Defendants.
This appeal concerns the administrative hearings
officer’s (“AHO”) determination of J.G. (“Student”) and
Howard and Denise G.’s (“Parents”) request for due
process following the issuance of Student’s March 16,
2017 Individualized Education Program (“IEP”) for the
2017-18 school year. Because Parents have not shown
by a preponderance of the evidence that the AHO’s

App. 6
December 20, 2017 decision (Dkt. No. 97-29) should be
reversed, the Court AFFIRMS that decision.
BACKGROUND
Student, who was fourteen years old at the time of
the AHO’s December 20, 2017 decision (“Decision”), is
eligible for special education and related services pursuant to the Individuals with Disabilities Education
Act of 2004 (“IDEA”), 20 U.S.C. §§ 1400, et seq., for Autism Spectrum Disorder (“ASD”), Level 3 (requiring
very substantial support) with early language impairment, Anxiety Disorder, and Obsessive-Compulsive
Disorder. Decision at 5 (FOF 2), Dkt. No. 97-29 (citing Pet’rs’ Admin. Ex. 4 [Confidential BACB Advisory
Warning (Sept. 2, 2015)] at 121-22, Dkt. No. 103-5).
Student has received these services via Autism Management Services a/k/a Maui Autism Center (“AMS”),
a private school owned by Parents, since 2010. Second
Am. Compl. (“SAC”) ¶ 11, Dkt. No. 72; see also Decision
at 5 (FOF 6), Dkt. No. 97-29 (citations omitted).
Student’s IEP for the 2017-18 school year was developed during a series of IEP meetings on February
22, February 24, March 13, March 15, and March 16,
2017.1 At least eight individuals—including Parents,
1

IEPs are crafted annually by a group of individuals (the
“IEP team”) composed of “the parents of a child with a disability,”
at least one regular education teacher and one special education
teacher, a qualified and knowledgeable representative of the local
educational agency, “an individual who can interpret the instructional implications of evaluation results,” if not one of the other
IEP team members, “other individuals who have knowledge or

App. 7
Defendant Françoise Wittenburg (Principal of Student’s “Home” School, Lokelani Intermediate School),2
three Department of Education (“DOE”) teachers including Julia Whiteley (then-Special Education Teacher
at the Home School and DOE Department Head), an
Occupational Therapist, and a Speech-Language Pathologist—attended each IEP meeting. See Pet’rs’ Admin.
Ex. 8 [Mar. 16, 2017 IEP] at 29-34, Dkt. No. 103-9.3
The resulting March 16, 2017 IEP provides Student
with special education services—including one-to-one
individual instructional support and “specifically designed instruction in the areas of reading, writing,
mathematics, behavior, functional performance, and communication”—occupational therapy, speech and language therapy, transportation, and a variety of other
supplementary aids and services, program modifications, and supports. March 16, 2017 IEP at 2 (¶ 10),
26-27 (¶ 21). On the day of the final IEP meeting, Principal Wittenburg led the IEP team in a discussion of
options along the LRE continuum, from least-to-most
restrictive (see, e.g., Decision at 11-15 (FOFs 58-64),
Dkt. No. 97-29 (citations omitted)), until they determined that the IEP could be implemented at DOE’s
special expertise regarding the child,” at the discretion of the parent or agency, and “whenever appropriate, the child with a disability.” 20 U.S.C. § 1414(d)(1)(B).
2
The Court adopts the Defendants’ spelling of Principal Wittenburg’s name, which is apparently misspelled in the case caption. See Defs.’ Ans. to SAC at 2 n.1, Dkt. No. 94.
3
An AMS-affiliated Board Certified Behavioral Analyst (“BCBA”),
Keola Awana, also attended the final IEP meeting on March 16,
2017. See Mar. 16, 2017 IEP at 34, Dkt. No. 103-9.

App. 8
new public separate facility (Pet’rs’ Admin. Ex. 10
[Mar. 17, 2017 Prior Written Notice of Dep’t Action
(“PWN”)] ¶ 3, Dkt. No. 103-11 at 4). Accordingly, Principal Wittenburg “[r]ejected placement at a private
separate facility” such as AMS in favor of placement at
the less restrictive public separate facility, Po‘okela
Maui specialized education center. Mar. 17, 2017 PWN
¶ 3, Dkt. No. 103-11 at 4.4 At Po‘okela Maui, Student
would “participate with disabled peers during all
school hours” and would “have opportunities to interact with non-disable[d] peers during community outings.” Mar. 16, 2017 IEP at 28 (¶ 23), Dkt. No. 103-9.
Because Student “receive[d] educational services
in a private setting, [AMS] located in Kihei, HI,” when
the March 16, 2017 IEP was developed, the IEP also
provides for the following “transition plan” “[t]o occur
prior to and during change of placement”:
Because student had been in private separate
facility for some time, a transition plan will
be implemented to mitigate any potential
harmful impact of him moving to a less restrictive environment and transitioning to a
new school. Factors to consider for transition
will include new people, new location, selfinjurious behaviors, potential regression, access

4

The March 16, 2017 IEP meeting did not end immediately
after the public separate facility recommendation was made. Because Parents strongly objected, the team engaged in further discussion about why Po‘okela Maui would be a less restrictive
environment than AMS, as discussed in further detail below.

App. 9
to the community, [and] new program routines.
March 16, 2017 IEP at 2 (¶ 10), 27 (¶ 21), Dkt. No. 1039.
The instant matter arises out of Parents’ May 5,
2017 amended request for due process, which challenges the DOE’s “unilateral decision to change [Student]’s [educational] placement” from AMS to Po‘okela
Maui in the March 16, 2017 IEP. Admin. R., Ex. 1
[Pet’rs Addendum to Am. Request for Impartial Due
Process Hr’g] at 2, 5, Dkt. No. 97-1 [hereinafter Due
Process Compl.]. Parents contend that the March 16,
2017 IEP denied Student a free appropriate public
education (“FAPE”), as required by the IDEA, 20 U.S.C.
§ 141(9)(d)(1)(A), because: the change in placement
was “predetermined in the IEP without input from
[Parents]”; Parents “knew nothing about the Po‘okela
Maui facility and the DOE provided no information
regarding the facility” prior to changing Student’s
placement in the IEP; “independent research by . . .
[P]arents indicated that the Po‘okela Maui facility was
inadequate to meet [Student’s] needs and would not
provide him a FAPE”; “the change in [Student’s] educational placement from AMS, where he had been for
at least 7 years, to Po‘okela Maui violated the IDEA
and . . . [P]arents[’] procedural safeguards” under it;
and “keeping [Student] in his current placement was
not even considered by the IEP team.” Due Process

App. 10
Compl. at 3-4, Dkt. No. 97-2.5 A hearing on this Due
Process Complaint was scheduled for October 30, 2017
before AHO Rowena A. Somerville.
In anticipation of their due process hearing, Parents filed an August 9, 2017 Motion to Establish Burden of Proof, asking the Office of Administrative
Hearings to “assign the burden of proof to [ ]DOE as to
whether the change in [Student]’s placement from the
judicially-approved placement at AMS back to the public school Po‘okela Maui complies with IDEA and is a
proper change of placement.” Admin. R., Ex. 11 [Burden of Proof Mot.] at 16, Dkt. No. 97-12. AHO Somerville denied the Burden of Proof Mot. on October 11,
2017. See Admin. R., Ex. 19 [Order Denying Burden of
Proof Mot.], Dkt. No. 97-20. In a letter dated September 27, 2017, Parents also requested that AHO Somerville conduct a site visit of AMS prior to ruling on the
Due Process Complaint (Admin. R., Ex. 16 [Site Visit
Request], Dkt. No. 97-17), but AHO Somerville declined

5

Parents also suggest that the timing of the recommended
change of Student’s placement—which “followed closely on the
heels of a Ninth Circuit determination” in Student’s related cases,
G. et al. v. State of Hawaii, Department of Education, et al., Case
No. 1:11-cv-00523-DKW-KSC (D. Haw. Aug. 25, 2011), and Department of Education, State of Hawaii v. G., Case No. 1:13-cv00029-DKW-KSC (D. Haw. Jan. 17, 2013) (consolidated), that was
“highly favorable to [Parents] with respect to [Student]’s placement at AMS”—“represents unlawful retaliation by the DOE
against [Parents] for their prior efforts to enforce [Student]’s right
to a FAPE and for their advocacy on behalf of others in the Maui
special education community.” Due Process Compl. at 12, Dkt.
No. 97-2.

App. 11
to do so on September 29, 2017 (Admin. R., Ex. 18 [Order Denying Site Visit Request], Dkt. No. 97-19).
On October 10, 2017, Parents initiated the instant
federal lawsuit challenging the Order Denying Burden
of Proof Motion and the Order Denying Site Visit Request (collectively “AHO Somerville’s Pre-Trial Orders”). Compl., Dkt. No. 1. The same day, Parents also
filed a motion before the AHO (Dkt. No. 10-3 at 103-08)
seeking to stay further administrative proceedings on
the Due Process Complaint “pending resolution of issues on appeal.” Parents next filed a “Motion to Enforce
the ‘Stay Put’ Rule” in this Court on October 11, 2017,
in which they requested an order requiring the DOE
“to allow [Student] to remain in and continue to pay
for his current educational placement at [AMS] until
complete resolution of the issues presently before this
Court, including any appeals taken therefrom.” See
Mot. to Enforce at 4, Dkt. No. 7. Parents filed their
First Amended Complaint (Dkt. No. 9) and a Motion
for TRO (Dkt. No. 10) on October 19, 2017. In the latter,
Parents sought review of AHO Somerville’s Pre-Trial
Orders and asked the Court to enjoin administrative
proceedings on the Due Process Complaint scheduled
for October 30, 2017. See TRO Mot. ¶ 6, Dkt. No. 10.
Finding both of AHO Somerville’s Pre-Trial Orders to
be “clearly interlocutory,” this Court denied the Motion
for TRO on October 25, 2017. Entering Order (Oct. 25,
2017), Dkt. No. 37 (citing In re Merle’s Inc., 481 F.2d
1016, 1018 (9th Cir. 1973)). Parents appealed the October 25, 2017 Entering Order to the Ninth Circuit
Court of Appeals on October 26, 2017. See Notice of

App. 12
Interlocutory Appeal, Case No. 17-17190 (9th Cir. Oct.
25, 2017), Dkt. No. 38.6 This Court denied Parents’ October 26, 2017 “Motion to Stay Proceedings Pending
[Interlocutory] Appeal” (Dkt. No. 39). See Entering Order (Oct. 26, 2017), Dkt. No. 40. After the AHO filed the
Decision on December 20, 2017, Parents filed the SAC
on February 22, 2018, raising fifteen causes of action
and seeking monetary, declaratory, and injunctive relief. SAC, Dkt. No. 72.
The administrative hearing on Parents’ May 5,
2017 Due Process Complaint began on October 30,
2017 and lasted for four days. See Tr. of Proceedings
(Oct. 30, 2017), Dkt. No. 99; Tr. of Proceedings (Oct. 31,
2017), Dkt. No. 100; Tr. of Proceedings (Nov. 1, 2017),
Dkt. No. 101; Tr. of Proceedings (Nov. 2, 2017), Dkt. No.
102. In her December 20, 2017 decision, AHO Somerville upheld the placement decision of Po‘okela Maui in
Student’s March 16, 2017 IEP, concluding that Parents
had “not met their burden and ha[d] not shown procedural or substantive violations of the IDEA denying
Student a FAPE.” Decision at 32, Dkt. No. 97-29. In
support of this holding, the Decision contains the following conclusions of law:
The Hearings Officer finds the DOE witnesses
to be credible. The Hearings Officer further
finds that the DOE did not block Parents’ participation in the March 16, 2017 IEP meeting or predetermine Student’s placement. The
Hearings Officer further finds that the DOE
6

Parents’ interlocutory appeal was denied. See Mem., Case
No. 17-17190 (9th Cir. June 27, 2018), Dkt. No. 132.

App. 13
offered Student a FAPE that was appropriately designed to convey student a meaningful educational benefit.
....
The IEP was specifically tailored to meet Student’s unique needs and provide him with a
meaningful educational benefit and to make
progress, and the IEP can be implemented at
the [public separate facility] with a transition
plan.
....
The private facility [(AMS)] offers Student
far less opportunity to socialize with nondisabled peers [than] the [public separate facility (Po‘okela Maui)]. The Hearings Officer
finds that the IEP team had an adequate discussion regarding LRE. The Hearings Officer
further finds that the [public separate facility], with a transition plan, is the LRE for Student.
Decision at 25, 32, Dkt. No. 97-29. AHO Somerville also
found that, because Parents did not show[ ] that the
March 16, 2017 IEP denied Student a FAPE[,]” “the issue of appropriateness of the private facility does not
need to be addressed.” Decision at 32, Dkt. No. 97-29.
In their Second Amended Complaint (Dkt. No. 72),
Parents ask the Court to vacate AHO Somerville’s
Pre-Trial Orders (“Counts I & II”; SAC ¶¶ 64-94) and
Decision (SAC ¶¶ 95-190). In Counts II-IV of the SAC,
Parents allege that the Decision contains errors of law

App. 14
regarding “Burden of Proof,” “FAPE Standard,” “[LRE]/
Placement,” “Transition Services,” and “Stay Put” (“Count
III”; SAC ¶¶ 95-138); mixed errors of law and fact
regarding “Parental Participation/Predetermination,”
“[LRE],” and “Transition Services” (“Count IV”; SAC
¶¶ 139-76); and errors of fact that allegedly contributed to the Decision’s legal errors (“Count V”; SAC
¶¶ 177-80). Parents assert that the March 16, 2017
IEP constitutes a “Denial of FAPE” to Student (“Count
VI”; SAC ¶¶ 181-90), among other things. The instant
dispute relates to Counts I-VI of the SAC.7 See, e.g.,
Mem. of Law—Pls.’ Opening Br. on Cts. 1-6 of SAC,
Dkt. No. 123 [hereinafter OB].
On April 5, 2018, the Court heard oral arguments
on the Motion to Enforce the “Stay Put” Rule (Dkt. No.
7) and other motions in Parents’ related cases.8 See
EP, Dkt. No. 106. Following this hearing, the parties
7

The SAC also brings claims for discrimination under Section 504 of the Rehabilitation Act of 1973, 29 U.S.C. §§ 701, et seq.
(SAC ¶¶ 191-201) and under the Americans with Disabilities Act
of 1990, 42 U.S.C. §§ 12101, et seq. (SAC ¶¶ 202-13); “Civil Rights
Violations” arising under 42 U.S.C. § 1983 (SAC ¶¶ 214-46); violations of the “Hawaii Law Against Discrimination in Public Accommodations,” Hawai‘i Revised Statutes §§ 489-1, et seq. (SAC
¶¶ 247-53); violations of the IDEA’s “Stay Put” provision, 20
U.S.C. § 1415( j) (SAC ¶¶ 258-64); Intentional Infliction of Emotional Distress (SAC ¶¶ 286-89); and Negligent Infliction of Emotional Distress (SAC ¶¶ 290-91). The SAC also seeks entry of a
declaratory judgment for a “Systemic Violation of IDEA” under
the Federal Declaratory Judgment Act, 28 U.S.C. § 2201(a) (SAC
¶¶ 254-57) and injunctive relief in the form of a TRO allowing
Student to remain at AMS and ordering the DOE to reimburse
Parents for the associated costs (SAC ¶¶ 265-85).
8
Supra n.4.

App. 15
entered a “Stipulation Regarding Obligation Under
20 U.S.C. § 1415(j) (‘Stay Put’) with Respect to J.G.’s
Placement” on April 20, 2018 (“Stay Put Stipulation”),
in which they stipulate and agree that— “J.G.’s stay
put placement with respect to the underlying administrative proceeding, DOE-SY1617-067A, and the current judicial proceeding . . . is [AMS]”; J.G.’s stay put
placement is “based upon” the February 29, 2016 IEP;
this placement “shall remain during the pendency of
this current judicial proceeding through and including
final resolution of and all appeals of the IDEA claims”;
and the DOE “shall abide by the stay put placement
pursuant to the IDEA.” Stay Put Stipulation at 2, Dkt.
No. 118. The parties also filed a stipulation (Dkt. No.
114) dismissing with prejudice all claims against the
Office of Administrative Hearings and against AHO
Somerville in her capacity as AHO on April 16, 2018.
Parents appeal from the December 20, 2017 Decision that upheld the March 16, 2017 IEP, with the
Court hearing oral argument on July 20, 2018. See EP,
Dkt. No. 138. The instant disposition follows.
LEGAL STANDARDS
I.

IDEA Overview

“The IDEA is a comprehensive educational scheme,
conferring on disabled students a substantive right to
public education and providing financial assistance to
enable states to meet their educational needs.” Hoeft ex
rel. Hoeft v. Tucson Unified Sch. Dist., 967 F.2d 1298,
1300 (9th Cir. 1992) (citing Honig v. Doe, 484 U.S. 305,

App. 16
310 (1988)). It ensures that “all children with disabilities have available to them a free appropriate public
education [FAPE] that emphasizes special education
and related services designed to meet their unique
needs and prepare them for further education, employment, and independent living[.]” 20 U.S.C. § 1400(d)(1)(A).
As a condition of federal financial assistance under
the IDEA, states must provide such an education to
disabled children residing in the state who are between the ages of 3 and 21, inclusive. 20 U.S.C.
§ 1412(a)(1)(A).
Under the IDEA, FAPE means special education
and related services that: (a) “have been provided at
public expense, under public supervision and direction,
and without charge”; (b) “meet the standards of the
State educational agency”; (c) “include an appropriate
preschool, elementary school, or secondary school education in the State involved”; and (d) “are provided in
conformity with the individualized education program. . . .” 20 U.S.C. § 1401(9); 34 C.F.R. § 300.17; Haw.
Admin. R. § 8-60-2. “A FAPE is accomplished through
the development of an IEP for each child.” Laddie C. ex
rel. Joshua C. v. Dep’t of Educ., 2009 WL 855966, *2 (D.
Haw. Mar. 27, 2009) (citing Ojai Unified Sch. Dist. v.
Jackson, 4 F.3d 1467, 1469 (9th Cir. 1993), cert. denied,
513 U.S. 825 (1994)).
The IDEA guarantees “procedural safeguards
with respect to the provision of a [FAPE]” to “children
with disabilities and their parents.” 20 U.S.C. §§ 1415(a),
(b)-(h). For example, parents of a disabled child who
claim violations of the IDEA “with respect to any

App. 17
matter relating to . . . educational placement of the
child[ ] or the provision of a free appropriate public education to such child” can file a complaint with a due
process hearing officer under 20 U.S.C. § 1415(b)(6)(A).
Hopewell Valley Reg’l Bd. of Educ. v. J.R., 2016 WL
1761991, *3 (D.N.J. May 3, 2016) (citing S.H. v. Lower
Merion Sch. Dist., 729 F.3d 248, 257 (3d Cir. 2013)).
Moreover, “wherever a complaint has been received under subsection (b)(6) or (k) of this section, the parents
involved in such complaint shall have an opportunity
for an impartial due process hearing” to be “conducted
by the State educational agency” at issue—here, the
DOE. 20 U.S.C. § 1415(f )(1)(A).
II.

District Court Review

“Any party aggrieved by the findings and decision”
made pursuant to an administrative hearing under the
IDEA “shall have the right to bring a civil action with
respect to the complaint presented . . . in a district
court of the United States. . . . ” 20 U.S.C. § 1415(i)(2)(A).
When a party files an action challenging an administrative decision under the IDEA, the district court
“(i) shall receive the records of the administrative proceedings; (ii) shall hear additional evidence at the request
of a party; and (iii) basing its decision on the preponderance of the evidence, shall grant such relief as the
court deems is appropriate.” 20 U.S.C. § 1415(i)(2)(C);
see Ojai Unified, 4 F.3d at 1471. The party challenging
the administrative decision bears the burden of proof.
See Hood v. Encinitas Union Sch. Dist., 486 F.3d 1099,
1103 (9th Cir. 2007); J.W. ex rel. J.E.W. v. Fresno Unified

App. 18
Sch. Dist., 626 F.3d 431, 438 (9th Cir. 2010) (stating
that the challenging party must show, by a preponderance of the evidence, that the decision of the hearings
officer should be reversed); Seattle Sch. Dist., No. 1 v.
B.S., 82 F.3d 1493, 1498 (9th Cir. 1996).
In reviewing administrative decisions, the district
court must give “due weight” to the AHO’s judgments
of educational policy. L.M. v. Capistrano Unified Sch.
Dist., 556 F.3d 900, 908 (9th Cir. 2009); Michael P. v.
Dep’t of Educ., 656 F.3d 1057, 1066 (9th Cir. 2011)
(quoting B.S., 82 F.3d at 1499). However, the district
court has the discretion to determine the amount of
deference it will accord the administrative ruling itself.
J.W., 626 F.3d at 438 (citing Gregory K. v. Longview
Sch. Dist., 811 F.2d 1307, 1311 (9th Cir. 1987)). In
reaching this determination, the court should consider
the thoroughness of the hearings officer’s findings, increasing the degree of deference where said findings
are “thorough and careful.” Michael P., 656 F.3d at
1066; L.M., 556 F.3d at 908 (quoting Capistrano Unified Sch. Dist. v. Wartenberg, 59 F.3d 884, 892 (9th Cir.
1995)); cf. Cty. of San Diego v. Cal. Special Educ. Hr’gs
Office, 93 F.3d 1458, 1466-67 (9th Cir. 1996) (explaining
that the district court should give “substantial weight”
to the decision of the hearings officer when the decision
“evinces his [or her] careful, impartial consideration of
all the evidence and demonstrates his [or her] sensitivity to the complexity of the issues presented” (citation
and quotation marks omitted)). Further, the amount of
deference to be given to an AHO’s decision is, in part,
influenced by whether the hearings officer’s findings

App. 19
are based on credibility determinations of the testifying witnesses. See L.E. v. Ramsey Bd. of Educ., 435 F.3d
384, 389 n.4 (3d Cir. 2006); see also B.S., 82 F.3d at 1499
(citations omitted). Such deference is appropriate because “if the district court tried the case anew, the work
of the hearing officer would not receive ‘due weight,’
and would be largely wasted.” Wartenberg, 59 F.3d at
891.
“[T]he ultimate determination of whether an IEP
was appropriate,” however, “is reviewed de novo.” A.M.
ex rel. Marshall v. Monrovia Unified Sch. Dist., 627
F.3d 773, 778 (9th Cir. 2010) (citing Wartenberg, 59 F.3d
at 891).
DISCUSSION
The Court AFFIRMS the Decision of the AHO,
holding that the March 16, 2017 IEP did not deny Student a FAPE.
I.

FAPE Standard

To provide a free appropriate public education in
compliance with the IDEA, a state educational agency
receiving federal funds must evaluate a student, determine whether that student is eligible for special education, and formulate and implement an IEP. 20 U.S.C.
§ 1414(d)(1)(A) (“The term ‘individualized education
program’ or ‘IEP’ means a written statement for each
child with a disability that is developed, reviewed, and
revised in accordance with section 1414(d) of this

App. 20
title.”)). The IEP is to be developed by an “IEP team”
composed of, inter alia, school officials, parents, teachers and other persons knowledgeable about the child.
To determine whether a student has been offered
a FAPE, the Supreme Court of the United States has
established a two-part test, which examines: (1) whether
the state has complied with the procedural requirements set forth in the IDEA; and (2) whether the IEP
developed through the Act’s procedures is reasonably
calculated to enable the child to receive educational
benefits. Bd. of Educ. v. Rowley, 458 U.S. 176, 206-07
(1982). “Procedural flaws in the IEP process do not always amount to the denial of a FAPE.” L.M., 556 F.3d
at 909 (citations omitted). Rather, “[a] procedural violation denies a free appropriate public education if it
results in the loss of an educational opportunity, seriously infringes the parents’ opportunity to participate
in the IEP formulation process or causes a deprivation
of educational benefits.” J.L. v. Mercer Island Sch.
Dist., 592 F.3d 938, 952 (9th Cir. 2009) (citing N.B. v.
Hellgate Elementary Sch. Dist., 541 F.3d 1202, 1208
(9th Cir. 2008)). Additionally, the “educational benefit[ ]” that the child’s IEP “is reasonably calculated to
enable the child to receive” must be more than de minimus. Endrew F. v. Douglas County School District, 137
S. Ct. 988 (2017). The IDEA “requires an educational
program reasonably calculated to enable a child to
make progress appropriate in light of the child’s circumstances.” Id. at 1001; Blake C. ex rel. Tina F. v. Haw.
Dep’t of Educ., 593 F. Supp. 2d 1199, 1206 (D. Haw.
2009) (holding that the IEP must be tailored to the

App. 21
unique needs of the child and reasonably designed to
produce benefits that are “significantly more than de
minimus, and gauged in relation to the potential of the
child at issue”).
II.

AHO Somerville’s Pre-Trial Orders

AHO Somerville’s Pre-Trial Orders denying Parents’ Motion to Establish Burden of Proof and Parents’
informal Site Visit Request are AFFIRMED.
A. Burden of Proof
It is firmly established that “[t]he burden of proof
in an administrative hearing challenging an IEP is
properly placed upon the party seeking relief.” Schaffer
v. Weast, 546 U.S. 49, 62 (2005). Parents insist that the
most significant issue in the instant matter is that
AHO Somerville incorrectly imposed this burden on
Parents, rather than the DOE. OB at 12-21, 24, Dkt.
No. 123. That is, Parents assert that because Student’s
“stay put” placement based on his February 29, 2016
IEP is AMS (see OB at 14, Dkt. No. 123 (citing Stay Put
Stipulation, Dkt. No. 118)), the DOE is the “true party
seeking relief in this case” because it “changed [Student]’s placement from AMS to Po‘okela in order to terminate its obligation to pay the monthly stipend of
$14,062.50 to AMS” (OB at 15, 20-21, Dkt. No. 123; Reply Br. at 2-3, Dkt. No. 133 (arguing that because Parents “had already proven that Defendants failed to
provide [Student] a FAPE at its public facilities and
that AMS was an appropriate placement for [Student]

App. 22
. . . , [DOE was] attempting to remove its obligation to
pay the private tuition at AMS under stay put”)). These
contentions are meritless.
In an administrative hearing challenging an IEP,
the party “seeking relief ” is the party who challenges
the IEP. Cf. Schaffer, 546 U.S. at 62. This is the settled
rule in the Ninth Circuit and elsewhere.9 Nothing Parents cite provides authority for their contention that
the DOE was actually the party seeking relief because
Student’s 2017 IEP recommended a new public placement even though Student was previously in a private
placement pursuant to his IEP for the 2016-17 school
year. See, e.g., OB at 14 (arguing that Student’s placement at AMS is “entitled to res judicata” but failing to
demonstrate how Student’s placement at Po‘okela
Maui in the March 16, 2017 IEP involves the same “issues of fact or law” that this Court resolved in the May
17, 2018 Order Granting Pl.’s Mot. for J. Granting
9

Parents’ Opening Brief states that “[t]his identical issue is
currently pending before the U.S. Court of Appeals for the Ninth
Circuit in J.M., et al. v. Kathryn Matayoshi, et al., USCA Case No.
16-17327” (OB at 12 n.4, Dkt. No. 123), further noting that oral
arguments in J.M. were scheduled to take place in June 2018. At
oral argument on this Motion on July 20, 2018, counsel for both
parties stated that the Ninth Circuit had issued its Memorandum
Disposition in J.M. According to Plaintiffs, the Ninth Circuit denied the appeal because the burden of proof issue was not raised
at the administrative hearing or in district court, but a petition
for rehearing en banc had been filed. Defense Counsel, however,
quoted from the Memorandum Disposition, in which the Ninth
Circuit acknowledged that the burden of proof issue had been
abandoned below, but also cited Schaffer, 546 U.S. 49, stating
that the law is “settled” that the burden of proof in an administrative hearing is properly placed on the party seeking relief.

App. 23
Reimbursement of Private Tuition, Case No. 1:11-cv00523-DKW-KSC (D. Haw. May 17, 2018), Dkt. No.
116).
Accordingly, the Court AFFIRMS the Order Denying Parents’ Motion to Establish Burden of Proof (Dkt.
No. 97-20).
B. Right to Present Evidence
Under the IDEA, “[a]ny party to a [due process]
hearing . . . shall be accorded . . . the right to present
evidence and confront, cross-examine, and compel the
attendance of witnesses. . . .” 20 U.S.C. § 1415(h)(2).
Parents contend that their right to present evidence
was violated when AHO Somerville declined to conduct
a site visit of AMS prior to the four-day administrative
hearing on Parents’ May 5, 2017 Due Process Complaint or prior to issuing the Decision. OB at 23, Dkt.
No. 123 (“AHO Somerville’s comment that testimony is
sufficient to describe the placement is akin to saying
witness statements and photos of the Grand Canyon
are sufficient to appreciate the Arizona landmark.
AHO Somerville should have permitted the site visit
as a means of Plaintiffs presenting evidence.”).
Parents, however, cite no authority for the proposition that an AHO must conduct a site visit to the existing placement site and/or the proposed placement
site prior to creating or finalizing an IEP. Parents also
fail to identify any prejudice or other tangible harm
caused by AHO Somerville’s refusal to visit AMS prior
to developing the March 16, 2017 IEP. See Hanson ex

App. 24
rel. Hanson v. Smith, 212 F. Supp. 2d 474, 485 (D. Md.
2002) (“[T]here needs to be harm to the child as the
result of a procedural violation in order that an otherwise proper IEP decision may be invalidated by a
court. To the extent that a procedural violation does
not actually interfere with the provision of a free appropriate public education, such a violation is not sufficient to support a finding that an agency failed to
provide a FAPE.”) (citing Gadsby by Gadsby v. Grasmick, 109 F.3d 940, 956 (4th Cir. 1997)); cf. W.G. v. Bd.
of Trustees of Target Range Sch. Dist. No. 23, 960 F.2d
1479, 1484 (9th Cir. 1992) (“[P]rocedural inadequacies
that result in the loss of educational opportunity, or seriously infringe the parents’ opportunity to participate
in the IEP formulation process, clearly result in the denial of a FAPE.” (internal citations omitted)), superseded in part by statute on other grounds, as stated in
J.K. v. Missoula Cty. Pub. Schs., 713 Fed. Appx. 666, 668
(9th Cir. 2018).
Accordingly, the Order Denying Parents’ Site Visit
Request (Dkt. No. 97-19) is AFFIRMED.
III. AHO Somerville’s December 20, 2017 Decision
A. Least Restrictive Environment
The IDEA’s LRE requirement is laid out in 20
U.S.C. § 1412(a). Section 1412(a) provides that each
state must establish procedures to assure that:
[t]o the maximum extent appropriate, children with disabilities . . . are educated with

App. 25
children who are not disabled, and special
classes, separate schooling, or other removal
of children with disabilities from the regular
educational environment occurs only when
the nature or severity of the disability of a
child is such that education in regular classes
with the use of supplementary aids and services cannot be achieved satisfactorily.
20 U.S.C. § 1412(a)(5)(A). This LRE provision “sets
forth Congress’s preference for educating children with
disabilities in regular classrooms with their peers.”
Sacramento City Unified Sch. Dist. v. Rachel H., 14
F.3d 1398, 1403 (9th Cir. 1994) (citing, inter alia, Dep’t
of Educ. v. Katherine D., 727 F.2d 809, 817 (9th Cir.
1983); Oberti v. Bd. of Educ., 995 F.2d 1204, 1213 (3d
Cir. 1993), as corrected (June 23, 1993)). The implementing regulations, in turn, require school districts to
ensure that a “continuum of alternative placements is
available to meet the needs of children with disabilities,” including “instruction in regular classes, special
classes, special schools, home instruction, and instruction in hospitals and institutions.” 34 C.F.R. § 300.115(a),
(b)(1). Placement options that facilitate mainstreaming are said to be less “restrictive” than are options
that would cause the disabled child to be more isolated
than “appropriate” under the child’s unique circumstances. See T.M. ex rel. A.M. v. Cornwall Cent. Sch.
Dist., 752 F.3d 145, 161 (2d Cir. 2014) (“After considering an appropriate continuum of alternative placements, the school district must place each disabled
child in the least restrictive educational environment
that is consonant with his or her needs.”). “Because

App. 26
every child is unique, ‘determining whether a student
has been placed in the “least restrictive environment”
requires a flexible, fact-specific analysis.’ ” Id. (quoting
P. ex rel. Mr. & Mrs. P. v. Newington Bd. of Educ., 546
F.3d 111, 113 (2d Cir. 2008)).
To perform this analysis, courts in the Ninth Circuit employ a four-factor balancing test, which considers (1) “the educational benefits of placement full-time
in a regular class”; (2) “the non-academic benefits of
such placement”; (3) “the effect [that the disabled child]
had on the teacher and children in the regular class”;
and (4) “the costs of mainstreaming [the child].” Rachel
H., 14 F.3d at 1404; accord B.E.L. v. Haw. Dep’t of
Educ., 711 Fed. Appx. 426, 427 (9th Cir. Feb. 14, 2018)
(quoting Rachel H., supra); Baquerizo v. Garden Grove
Unified Sch. Dist., 826 F.3d 1179, 1187 (9th Cir. 2016)
(same).10 According to the Decision:
The IEP team’s LRE discussion at the March
16, 2017 IEP meeting followed the first three
factors listed in Rachel H. The IEP team did
not consider the cost of mainstreaming Student into the Home School; however, the Hearings Officer finds that the cost of Student’s
10

Parents have offered no authority to support their argument that the AHO was also required to examine “the potential
harm to [Student] or the quality of services at” each placement
option along the LRE continuum “in her legal analysis of LRE.”
OB at 27, Dkt. No. 123. The Court therefore does not separately
address the IEP team’s discussion of these, except to note that
potential harms were discussed with respect to each of the placement environments that the IEP team reviewed on March 16,
2017. See, e.g., Decision at 13-14 (FOFs 61-62), Dkt. No. 97-29.

App. 27
education played no role in the Principal’s decision making process.
Decision at 26, Dkt. No. 97-29.
Despite Parents’ contention that the team’s LRE
discussion was inadequate (see OB at 27, Dkt. No. 123),
the Court holds that the AHO adequately addressed
the IEP team’s consideration of the Rachel H. factors
and conclusion that when “applying the facts of the
case to the LRE standard, the [public separate facility]
would provide Student with the LRE.” Decision at 26,
Dkt. No. 97-29. Accordingly, the Decision’s holding is
AFFIRMED.
1. Student’s Access to “Neuro-Typical” Peers
In leading the IEP team’s LRE discussion during
the March 16, 2017 meeting, Principal Wittenburg
used a worksheet entitled “Least Restrictive Environment; Justification for Placement.” That worksheet
lists placement options, from most-to-least restrictive
and provides space for notes on each option in light of
the first three Rachel H. factors. See Mar. 17, 2017
PWN ¶ 3, Dkt. No. 103-11 at 4. The IEP team discussed
Student’s access to both disabled and “neuro-typical”
peers in each educational setting along the LRE continuum, while special education teacher Julia Whiteley
took notes on the worksheet, categorizing discussion

App. 28
points as either positive (“+”) or negative (“-”).11 Decision at 11-15 (FOFs 58-64), Dkt. No. 97-29.

11

The Decision includes the following representation of the
completed worksheet with Whiteley’s annotations:
PLACEMENT

DECISION

RATIONALE
Factor
1

Factor
2

Factor
3

General
Education
Setting (80%
or more of
the school day)

REJECT

+ Respond toOverstimu- Behaviors
being with lated and impede
peers
unable to others
- Needs
smaller environment

General
Education
and Special
Education
Setting

REJECT

- Curriculum Negative
not mean- reaction to
ingful
neurotypical peers
+ Path to
diploma

Special
Education
Setting

REJECT

+ Implement
aspects
of IEP

Public
Separate
Facility

REJECT

+ IEP imple- - Transition
mented
to new staff/
+ Functional program/
Program- location
ming with + Similar
small group peers
and
+ Access
individual to the
community

Behaviors
and accommodation/
Modifications impede

- Safety
+ Member of
Concerns classroom
- Large environment
- Overstimulated
- Isolated
+ Member of
Classroom
+ No foreseeable negative effects
on teacher
and children
+ Group of
friends

App. 29
The IEP team began its LRE discussion on March
16, 2017 with the possibility of placement in a “general
education setting” at Student’s “Home School,” Lokelani Intermediate School. Regarding the benefits that
such a full-time placement in the general education
setting would present, Father stated that “Student
keeps a distance from neurotypical peers, because they
are upsetting to him,” so “[i]f Student was placed in a
regular classroom, he would not work,” he would be
“overstimulated,” and there would therefore “be no
educational benefit” to him. Decision at 12 (FOF 59),
Dkt. No. 97-29 (citing, in relevant part, Resp. Admin.
Ex. 7 at 1009 [CD of IEP Meeting (Mar. 16, 2017)] at
+ Functional
life skills
+ Cooperative skills
+ Community-based
lessons
Private
Separate
Facility

+ Longevity
of current
program

Public
Residential
Facility
Private
Residential
Facility
Homebound/
Hospital
Decision at 15 (FOF 64), 29, Dkt. No. 97-29 (summarizing Resp.
Admin Ex. 2 [Worksheet (annotated)] at 83, Dkt. No. 104-3 at 56).

App. 30
11:07-19:50, Dkt. No. 105-5 at 17). Instead, “Student
benefits from being with children with ASD.” Id. Father further explained that even from a non-academic
point of view, “being with [neuro-typical] peers would
have an adverse effect on Student.” Id. Father told the
IEP team that Student “would be disruptive to other
students” in such a setting. Id. See Rachel H., 14 F.3d
at 1404 (noting that the first two factors involve the
non-educational and educational benefits of a placement option, and the third factor examines the effect
that the Student would have on the teacher and children in the classroom at that placement). Principal
Wittenburg “rejected placement in the general education setting based on their discussion.” Tr. of Admin.
Hr’g (Nov. 1, 2017) at 32[3]-24 (Wittenburg), Dkt. No.
101.
The IEP team then discussed placement in a “general and special education setting,” which for Student
would also be at Lokelani Intermediate School. In this
placement setting, Student would benefit from being
“on a diploma path,” but Father reiterated that “it
would be ‘ridiculous’ for Student to be in general education” because “he would receive no benefit, and it
would be detrimental for him and the class.” Decision
at 13 (FOF 60), Dkt. No. 97-29 (citing CD of IEP Meeting (Mar. 16, 2017) at 11:07-19:50, Dkt. No. 105-5 at
17). Father also told the IEP team “that Student would
not benefit from the [special education] classroom [at
Lokelani Intermediate School] because of the close
proximity to the neurotypical peers on campus.” Id.
(noting that Parents even “had to ask the Charter

App. 31
School not to be so close to the outside of the private
facility’s building because [it] causes Student to have
negative reactions inside the building,” and Mother
noted that “[w]hen the Charter School would hold ‘morning circle,’ Student would scream when he walked by”).
Principal Wittenburg rejected placement in the general and special education setting based on this discussion. Id.
Next, the IEP team discussed placement in a specialeducation-only setting. For Student, such a setting
would be offered via the special education classroom at
Lokelani Intermediate School, which includes “a very
small group of children, some of whom ha[ve] ASD.”
Decision at 13 (FOF 61), Dkt. No. 97-29 (citing CD of
IEP Meeting (Mar. 16, 2017) at 26:58-33:25, Dkt. No.
105-5 at 17; Tr. of Admin. Proceedings (Nov. 1, 2017) at
322-24 (Wittenburg), Dkt. No. 101). During the discussion, Mother expressed her view that any change of
placement would involve a difficult and potentially
harmful transition for Student, but Principal Wittenburg explained that the IEP team still had to review
each placement setting on the LRE continuum before
making its offer of FAPE:
Mother stated that if Student is doing well in
one place, with people that know him and
have a history with him, he should not be
moved. She said to move him from one building to another for the “school’s convenience”
would not serve Student’s unique needs. She
stated it was not “one-size-fits-all” and referenced the worksheet. The Principal responded

App. 32
that they needed to discuss the three factors
for each placement option. Mother felt that if
the team was talking about a transition or
change, it would be more restrictive for Student’s unique needs because he would need
more than one skills trainer. The Principal responded that they had not made a decision
yet, and they were still going through the LRE
continuum and were focusing on Student’s
needs.
Decision at 13 (FOF 61), Dkt. No. 97-29 (citing CD of
IEP Meeting (Mar. 16, 2017) at 26:58-33:25, Dkt. No.
105-5 at 17; Tr. of Admin. Proceedings (Nov. 1, 2017) at
322-24 (Wittenburg), Dkt. No. 101). Although there
was evidence suggesting that “aspects of Student’s
IEP” could be implemented in the special education
setting, Parents testified that “[i]t would be overstimulating” for Student to be placed in “the large environment” of Lokelani Intermediate School, which could
even present “safety concerns” for Student if placed
there. Id. (“Father said when Student was in a DOE
School previously, he was isolated from his peers, did
not have his needs met, and it was not beneficial.”).
Principal Wittenburg rejected placement in the special
education setting based on this discussion. Id.; see also
Decision at 27-28, Dkt. No. 97-29.
The IEP team then moved to discuss placement at
a DOE public separate facility. For Student, as of
March 16, 2017, that meant Po‘okela Maui, a brand
new DOE school with a handful of enrolled students
“between grades five and nine” who have “various disabilities, primarily autism.” Tr. of Admin. Hr’g (Nov. 1,

App. 33
2017) at 416-17 (Whiteley), Dkt. No. 101 (discussing
her familiarity with Po‘okela Maui prior to the March
16, 2017 IEP meeting based on “several” past site visits). “Parents readily participated[,] and the [public
separate facility] discussion lasted 27 minutes.” Decision at 24, Dkt. No. 97-29. The special education
teacher opined that “the IEP could be implemented [at
Po‘okela Maui], specific functional programming could
also be implemented,” and that there would be “individual learning opportunities” there for Student. Decision at 14 (FOF 62), Dkt. No. 97-29 (noting that other
team members with first-hand knowledge similarly explained that Po‘okela Maui “focused on functional
skills, CBI [community-based instruction], and cooperative skills” (citing, in relevant part, CD of IEP Meeting (Mar. 16, 2017) at 33:32-1:00:42)). Although no
neuro-typical peers would be “regularly” present at
Po‘okela Maui, members of the IEP team noted that
Po‘okela students would have opportunities for community interaction—both by visiting Lokelani Intermediate School and by taking community outings to
restaurants and stores around Tech Park, where
Po‘okela Maui is located. See Decision at 10 (FOFs 4244), Dkt. No. 97-29 (citing, in relevant part, Tr. of Admin. Hr’g (Nov. 1, 2017) at 327 (Wittenburg), Dkt. No.
101); see also Tr. of Admin. Hr’g (Nov. 1, 2017) at 33132, 365-66, 372-73 (Wittenburg), Dkt. No. 101 (explaining that Po‘okela Maui is approximately one-half mile
from the Lokelani Intermediate School campus and describing Tech Park, acknowledging that grocery stores
are located in “a different part of Kihei”). These outings
would take place, together with “general education

App. 34
peers” from Lokelani Intermediate School, as frequently as “appropriate” and necessary to implement
each student’s individual IEP. Tr. of Admin. Hr’g (Nov.
1, 2017) at 372-73 (Wittenburg), Dkt. No. 101; Tr. of Admin. Hr’g (Nov. 2, 2017) at 418, 421, 460-61 (Whiteley),
Dkt. No. 102. Accordingly, Student’s “non-academic
benefits” at Po‘okela Maui would also include “opportunities to integrate into the community.” Mar. 17,
2017 PWN at 4, Dkt. No. 103-11.12 Nonetheless, Parents, who had not yet visited Po‘okela Maui, mostly focused on the negative aspects of a possible placement
there:
Mother said the “down-side” [of the public separate facility] was [that Parents] had filed a
“state complaint” against [the autism resource teacher serving as BCBA at Po‘okela
Maui], and “that would be a problem.” Father
stated he couldn’t speak about the facility, because it was brand new. Student’s program at
the private [AMS] facility was seven years old,
and he had familiar people there that worked
with him and knew his issues. Father said
that Student has extreme needs, and placement at the [public separate facility] was not
in his best interest. . . . Mother stated that she
was not sure if the community activities could
be implemented [at Po‘okela Maui,] noted the
[public separate facility’s] location at “Lipoa[,]”

12

These accessible, yet irregular, opportunities appeared appropriate, or, particularly in Student’s circumstance, even desirable, given Parents’ comments about his level of discomfort with
neuro-typical peers.

App. 35
and [questioned] if [Student’s] individual
needs could be met there.
Decision at 14 (FOF 62), Dkt. No. 97-29 (citing, in relevant part, CD of IEP Meeting (Mar. 16, 2017) at 33:321:00:42).
In light of all the information provided, Principal
Wittenburg concluded that the first three Rachel H.
factors suggested that Student would benefit academically and non-academically, and he would not negatively impact the teachers and children in the classroom, at the public separate facility, Po‘okela Maui.
Therefore, the least restrictive environment on the
LRE continuum in which DOE could provide Student
with a FAPE, in accordance with his needs identified
in the March 16, 2017 IEP, was Po‘okela Maui. See Mar.
16, 2017 IEP at ¶ 23, Dkt. No. 103-9 (explaining that
Student would “participate with disabled peers during
all school hours in a public separate facility” and would
“have opportunities to interact with non-disable[d]
peers during community outings”). Accordingly, Principal Wittenburg “[r]ejected placement at a private separate facility” such as AMS in favor of placement at the
new public separate facility, Po‘okela Maui. Mar. 17,
2017 PWN ¶ 3, Dkt. No. 103-11 at 4.
2. The “Cost of Mainstreaming” Factor
Parents’ argument that the DOE violated the
IDEA by failing to address the fourth Rachel H. factor
regarding costs of mainstreaming Student is inapposite. OB at 25-27, Dkt. No. 123; Reply at 5, 11, Dkt. No.

App. 36
133. First, the Record reveals that Father did, in fact,
raise the issue of cost at the March 16, 2017 IEP meeting when he accused Principal Wittenburg of following
“ ‘marching orders’ from the DOE district to cut costs”
in making the public separate facility recommendation. Decision at 14-15 (FOF 63), Dkt. No. 97-29 (citing
CD of IEP Meeting (Mar. 16, 2017) at 1:00:43-1:05:05,
00:00-12:57, Dkt. No. 105-5 at 17). Principal Wittenburg denied having any such “marching orders,” however, and she explained that she “accepted the [public
separate facility] to be the LRE,” which is why she
“made an offer of FAPE at the [public separate facility].” Decision at 24, Dkt. No. 97-29; Decision at 14-15
(FOF 63), Dkt. No. 97-29 (citing CD of IEP Meeting
(Mar. 16, 2017) at 1:00:43-1:05:05, 00:00-12:57, Dkt.
No. 105-5 at 17). Second, even though the IEP team
“did not [explicitly] consider the cost of mainstreaming
Student into the Home School” during its March 16,
2017 LRE discussion, AHO Somerville expressly found
“that the cost of Student’s education played no role in
the Principal’s decision-making process.” Decision at
26, Dkt. No. 97-29. And third, even if any one of the
Rachel H. factors is not specifically discussed during
the development of an IEP, the challenging party
“must still show prejudice from such a failure.” K.K. ex
rel. K.S.K. v. Hawaii, 2015 WL 4611947, *18, *20 (D.
Haw. July 30, 2015) (noting that a failure to discuss the
factors would be a procedural inadequacy that plaintiffs must demonstrate “resulted in the loss of educational opportunity or infringement on their ability to
participate in the formulation of the IEP” (citing L.M.,

App. 37
556 F.3d at 909)). Yet Parents have made no such showing in this case.
Accordingly, the IEP team did not reversibly err
by, according to Parents, failing to include the “cost”
factor in its LRE discussion prior to recommending
placement at a public separate facility.
3. Examining Every Option on the LRE Continuum
Parents also argue that “AHO Somerville erred by
failing to require a comparison of [Student]’s current
placement at AMS to any proposed change in placement in the legal analysis of [the] decision on LRE, including whether Po‘okela was a less or more restrictive
environment than AMS.” OB at 26-27, Dkt. No. 123;
Reply at 11-23, Dkt. No. 133. This argument fails for
two reasons.
First, Parents provide no authority for the contention that all possibilities on the LRE continuum
must be discussed before a placement recommendation
can be made. Here, in addition to the possible placement settings the IEP team did discuss—(1) General
Education Setting (80% or more of the school day),
(2) General Education and Special Education Setting,
(3) Special Education Setting; (4) Public Separate Facility—the LRE continuum includes four more restrictive placement environments—(5) Private Separate
Facility, (6) Public Residential Facility, (7) Private Residential Facility, and (8) Homebound/Hospital. See Worksheet (annotated), Dkt. No. 104-3 at 56. If Parents’

App. 38
arguments were correct, the IEP team would have
been required to conduct in-depth discussions of AMS
in addition to the other three, more restrictive options
than a public separate facility. See T.M., 752 F.3d at
161; 34 C.F.R. § 300.115(a), (b)(1). But Principal Wittenburg properly rejected these options without formal
discussion because under the IDEA, special education
should be delivered in the least restrictive environment. Mar. 17, 2017 PWN at 4, Dkt. No. 103-11.
Second, the Administrative Record shows that
Po‘okela Maui was more appropriate than AMS as the
least restrictive environment for Student under the
provisions of his March 16, 2017 IEP. Indeed, AHO
Somerville found that the public separate facility
would provide Student with more access to neurotypical peers and the community as a whole than would
AMS. See, e.g., K.D. ex rel. C.L. v. Dep’t of Educ., 665
F.3d 1110, 1128 (9th Cir. 2011) (noting that public
placement was “more appropriate” than the private option as the LRE because the specific IEP at issue “included provisions providing that [student] would have
the opportunity to interact with non-disabled peers”).
The facts support this finding.
That is, Parents discussed Student’s program at
AMS during each of the IEP team’s meetings to develop Student’s IEP for the 2017-18 school year, and
they provided additional information via correspondence. See, e.g., Pet’rs’ Admin. Ex. 7 [Parents’ Mar. 14,
2017 Letter], Dkt. No. 103-8. As of March 16, 2017, the
IEP team therefore knew that AMS is a private facility
with “12 full-time students that have high functioning

App. 39
ASD” (Decision at 6 (FOF 9), Dkt. No. 97-29 (citing, in
relevant part, Admin Tr. (Oct. 30, 2017) at 45-46 (Father), Dkt. No. 99) and that it “shares a campus with a
DOE Charter School” (Decision at 5-6 (FOF 8), Dkt. No.
97-29 (citing Admin Tr. (Oct. 30, 2017) at 44 (Father),
Dkt. No. 99; Admin. Tr. (Nov. 2, 2016) at 499 (Whiteley),
Dkt. No. 102). Although Parents later contended that
Student’s “program is on the same church grounds as
the local public charter school,” so he therefore “has
access to normally developing peers daily” at AMS
(Pet’rs’ Admin. Ex. 9 [Parents’ Mar. 16, 2017 Letter] at
2, Dkt. No. 103-10)), the IEP team possessed information indicating that such contact and access was, at
least in Student’s case, deleterious and not advantageous. For example, in their March 14, 2017 letter, Parents informed members of the IEP team that the
charter school had “politely agreed to move their morning circle assembly as they had noted that it was causing self-injurious behaviors for my son due to their
meeting proximity.” Parents’ Mar. 14, 2017 Letter, Dkt.
No. 103-8. Moreover, the special education teacher
(Whiteley), who had “observed Student at the private
facility on May 6, 2016, May 18, 2016, August 22, 2016,
and October 4, 2016,” noted that she had “never observed Student interacting with typically developing
peers, higher-functioning children with ASD, or with
general education students at the Charter School” on
any of her visits to AMS. Decision at 10 (FOF 41), Dkt.
No. 97-29 (citing Resp. Admin. Ex. [3] [Whiteley AMS
Observation Forms] at 309-11 (Dec. 13, 2016), 321-23
(Oct. 4, 2016), 329-31 (Aug. 22, 2016), 344-45 (May 6,
2016), 346[-47] (May 18, 2016), Dkt. No. 104-5; Tr. of

App. 40
Admin. Hr’g (Nov. 1, 2016) at 431-32 (Whiteley), Dkt.
No. 101; Tr. of Admin. Hr’g (Nov. 2, 2016) at 499-502
(Whiteley), Dkt. No. 102).13
Other testimony at the administrative hearing
also revealed that at AMS, Student had “no planned
inclusion activities with neurotypical peers from other
schools” and “[i]nteraction with neurotypical peers in
the community is not coordinated.” Decision at 7 (FOF
22), Dkt. No. 97-29 (“Student will go to place, such as a
park, in anticipation that other children will be there.”
(citing Admin Tr. (Oct. 31, 2017) at 253-55 (Glasgow),
Dkt. No. 100)). Although AMS was arguably closer to
the center of Kihei town, being located next to Kihei
Charter School and near grocery stores and parks, students at Po‘okela Maui could engage in community
outings to stores or restaurants in the Tech Park area
or to Lokelani Intermediate School, located one-half
mile away, which “could occur daily” if appropriate to
implement their individual IEPs. Tr. of Admin. Hr’g
(Nov. 2, 2017) at 495-96, 511 (Whiteley), Dkt. No. 102.
As such, the record supports Whiteley’s explanation that Po‘okela Maui was “less restrictive” than
AMS because its students “had more access to general
13

In fact, Whiteley never observed Student interacting with
any other children or students at AMS. See, e.g., Decision at 10
(FOF 40), Dkt. No. 97-29 (“On February 5, 2016, the [special education] teacher observed Student at [AMS] for one hour and 15
minutes. During that time, two dividers separated Student from
the rest of the class. When the class exited the room for an outside
activity, Student remained behind and continued with his table
activity, isolated from his peers.” (citing Resp. Admin. Ex. 3 at
351 [Whiteley Event Log (Feb. 5, 2016)], Dkt. No. 104-5)).

App. 41
education peers” at Lokelani Intermediate School, “as
well as a more functional program” for community interactions. Tr. of Admin. Hr’g (Nov. 2, 2017) at 495-96,
511 (Whiteley), Dkt. No. 102. The Court therefore declines to disturb the conclusion of both the IEP team
and the AHO that the public separate facility was the
LRE for Student and an appropriate placement under
the March 16, 2017 IEP.
B. Pre-Determination
Under the IDEA, a school district may not determine a placement for the student before the IEP
meeting; rather, “the general rule is that placement
should be based on the IEP.” Spielberg v. Henrico Cty
Pub. Schs., 853 F.2d 256, 259 (4th Cir. 1988) (basing its
holding on the “spirit and intent of the EHA [the predecessor to the IDEA], which emphasizes parental involvement”); accord Deal v. Hamilton Cty. Bd. of Educ.,
392 F.3d 840, 857 (6th Cir. 2004) (quoting Spielberg,
supra), cert. denied, 546 U.S. 936 (2005); see also W.G.,
960 F.2d at 1484 (finding that predetermination of
placement prior to formation of an IEP is impermissible under the IDEA). As such, the logical progression
of developing an annual IEP would first require the
team to identify the student’s needed programs and
services, research placement options, and only after doing so, make its final placement decision in light of this
information.
Parents argue that four lines of evidence demonstrate that the team did not follow this logical

App. 42
progression but instead impermissibly pre-determined
that Student’s placement would be changed to Po‘okela
Maui. A review of the facts in the Administrative Record, however, evidences otherwise.
1. Conversation with District Resource Teacher
Chad Takakura at the Po‘okela Maui Open
House
After the March 16, 2017 IEP meeting, Parents
visited Po‘okela Maui and met Chad Takakura, a licensed special education and autism teacher there. Tr.
of Admin. Hr’g (Nov. 1, 2017) at 433 (Whiteley), Dkt.
No. 101; Tr. of Admin. Hr’g (Nov. 2, 2017) at 534-35
(Ballinger), Dkt. No. 102. In the letter that Parents
sent to Principal Wittenburg after this visit, Parents
“alleged that the Principal predetermined Student’s
placement at the [public separate facility], based on
their discussions with [Takakura].” Decision at 17
(FOF 81), Dkt. No. 97-29 (citing Parents’ Mar. 16, 2017
Letter, Dkt. No. 103-10). According to Father, Takakura
“told him that . . . Principal [Wittenburg] had visited
the [facility] earlier in the week and told him that Student would be attending school there.” Decision at 17
(FOF 76), Dkt. No. 97-29 (citing Tr. of Admin. Hr’g (Oct.
30, 2017) at 42-43, 79 (Father), Dkt. No. 99; Tr. of Admin. Hr’g (Oct. 31, 2017) at 288-89 (Mother), Dkt. No.
100).
However, Principal Wittenburg “testified that she
never had a discussion about Student with [Takakura].”
Decision at 17 (FOF 78), Dkt. No. 97-29 (citing Tr. of

App. 43
Admin. Hr’g (Nov. 1, 2017) at 332 (Wittenburg), Dkt.
No. 101). And Takakura did not testify during the Administrative Hearing, notwithstanding his appearance
on the DOE’s witness list. See DOE Admin. Witness
List ¶ 4, Dkt. No. 104-1 at 3.
AHO Somerville found Principal Wittenburg’s testimony on the topic “to be more credible” than Parents’
testimony (Decision at 25, Dkt. No. 97-29), and the
Court defers to this determination under the facts before it. See B.S., 82 F.3d at 1499; Wartenberg, 59 F.3d
at 891 (citation omitted); L.E., 435 F.3d at 389 n.4 (explaining that a district court must accept the administrative hearings officer’s credibility determinations
“unless the nontestimonial, extrinsic evidence in the
record would justify a contrary conclusion.” (citation
omitted)). Indeed, Parents have failed to offer any evidence calling Principal Wittenburg’s testimony into
question. Furthermore, Principal Wittenburg’s site
visit to Po‘okela Maui prior to making the March 16,
2017 offer of FAPE there appears to represent due diligence. Cf. K.D., 665 F.3d at 1123 (“[T]he fact that the
DOE scouted out [the eventual placement setting] as a
potential of placement for the . . . IEP [at issue] is not
conclusive evidence that the DOE had decided to place
[the child] there. . . .” (citation omitted)).
Parents have not shown that Principal Wittenburg
pre-determined Student’s 2017-18 placement based on
any conversation she had with Takakura while visiting
the Po‘okela Maui campus prior to the final IEP meeting.

App. 44
2. Inclusion of Bus Transportation in the
March 16, 2017 IEP
Parents also argue that the fact that DOE representatives wanted to discuss the possibility of Student needing state-facilitated transportation under
the March 16, 2017 IEP shows that the DOE had already decided to change Student’s placement prior to
finalizing that IEP. OB at 22, Dkt. No. 123 (citing Tr. of
Admin. Hr’g (Oct. 31, 2017) at 281-83, Dkt. No. 100)
(“Transportation, presumably to Po‘okela, was inserted
in the draft IEP during the March 13, 2017 IEP meeting.”); Reply at 10-11, Dkt. No. 133 (“If placement was
not yet decided, there would be no need to discuss
transportation[, which] is a related service to be included in an IEP only ‘if required to provide special
transportation for a child with a disability.’ ”) (quoting
34 C.F.R. § 300.34(c)(16)(iii)). They argue that this is
evidence of pre-determination, in-part because Parents—who work at Student’s previous placement,
AMS—have always refused transportation as part of
Student’s prior IEPs. In fact, Mother testified that she
declined transportation services during the March 15,
2017 meeting, but one of the district resource teachers
“insisted that she accept.” Decision at 11-12 (FOF 55),
Dkt. No. 97-29 (citing, in relevant part, Tr. of Admin.
Hr’g (Oct. 31, 2017) at 281-84 (Mother), Dkt. No. 100).
Parents, in other words, seek to penalize the IEP
team for its thoroughness. Indeed, AHO Somerville described the transportation issue as follows:
At the March 15, 2017 IEP meeting, [one
of the district resource teachers] discussed

App. 45
busing as a transportation option. Parents
said that Student would need an aid [sic]
when riding the bus, and the IEP team said
that this would be addressed through a transition plan. When Mother questioned why
transportation services were not in Student’s
previous IEP, [the teacher] stated that this
was a [special education] service offered to all
eligible students, and she preferred to include
it in the IEP. Father was not opposed to this,
and stated that Student needed to learn how
to ride the bus. There was no evidence to support Petitioners’ claim of predetermination
from the IEP team’s offer of transportation
services.
Decision at 23, Dkt. No. 97-29 (explaining that “[t]he
audio recording of the IEP meeting [was] quite different from Mother’s recollection” that DOE officials insisted that she accept transportation services, “calling
her credibility into question); accord Decision at 11
(FOF 54) (citing Resp. Admin. Ex. 7 at 1008 [CD2 of
IEP Meeting (Mar. 15, 2017)] at 49:40-51:23, Dkt. No.
105-5 at 16). And despite Parents’ contention (Reply at
10-11, Dkt. No. 133), there is no prohibition on including services that only might be necessary in a student’s
IEP. See 34 C.F.R. § 300.34(c)(16)(iii).
Additionally, Parents take issue with AHO Somerville’s conclusion about the adequacy of a “transition
plan” in the March 16, 2017 IEP—namely, they argue
that the DOE merely made a plan to make a plan,
which they allege is not adequate under the IDEA. See
OB at 27-29, 35-36, Dkt. No. 123. But the fact that the

App. 46
IEP team included elements such as bus transportation can be seen as an aspect of the very transition plan
Parents claim was absent.14 Moreover, and perhaps
more importantly, “a transition plan may be created
(and appropriately developed) after an IEP has been
completed.” Anthony C. ex rel. Linda C. v. Dep’t of
Educ., 2014 WL 587848, *10 (D. Haw. Feb. 14, 2014)
(citation omitted). Indeed, the logical progression of
the annual IEP involves developing a plan, and then
determining whether the State can implement that
plan at a suggested placement along the continuum of
placement options. See Spielberg, 853 F.2d at 259. It
makes sense, then, that without knowing where the
suggested placement would be, DOE was thoroughly
planning by provisionally addressing potential transportation services.
Moreover, it appears a concerted effort was made
to begin developing a transition plan in consultation
with Parents, but no such planning meeting ever took
place due to Parents’ unavailability and the instant
federal lawsuit. See Decision at 19 (FOFs 87-92), Dkt.
No. 97-29 (citing, in relevant part, Resp. Admin. Ex. 4
at 378 [Mar. 24, 2017 Wittenburg Letter], 376 [Mar. 29,
2017 Whiteley Email], 374 [Mar. 29, 2017 Whiteley
Email], 372 [Mar. 31, 2017 Whiteley Email], Dkt. No.
104-6; Resp. Admin. Ex. 1 at 21-26 [Parents’ Mar. 31,
2017 Correspondence & Due Process Request], Dkt. No.
104-2 (noting that Parents were in Israel and would be
14

Perhaps tellingly, Parents find fault with the very offer of
transportation services and then do so again when insufficient details regarding those services is described.

App. 47
unable to participate in any meetings until they returned—i.e., until the week of April 24, 2017)). As such,
the following conclusion in AHO Somerville’s Decision
is supported by the Administrative Record:
The IEP included a transition plan to a [public
separate facility]. The transition plan would
occur prior to and during Student’s change of
placement. The IEP stated, “[b]ecause student
had been in private separate facility for some
time, a transition plan will be implemented to
mitigate any potential harmful impact [to]
him moving to a less restrictive environment
and transitioning to a new school. Factors to
consider for transition will include new people, new location, self-injurious behaviors, potential regression, access to the community,
new program routines.” The DOE tried to
schedule a transition plan meeting with Parents, but they were out of the country. Soon
thereafter, the [Due Process Complaint] was
filed.
Decision at 32, Dkt. No. 97-29.
Accordingly, addressing transportation services in
the March 16, 2017 IEP is not evidence of pre-determination.
3. Pre-Printed Form
Parents have also argued that the DOE arrived at
the March 16, 2017 meeting with “a pre-printed IEP
indicating placement (under the Least Restrictive Environment or LRE) as Po‘okela Maui,” which they claim

App. 48
is evidence of pre-determination. Due Process Compl.
at 3, Dkt. No. 97-2; see also Tr. of Admin. Hr’g. (Oct. 30,
2017) at 37 (Father), Dkt. No. 99. However, Father acknowledged during the Administrative Hearing before
AHO Somerville that he did not receive any draft IEP
with the placement recommendation filled out prior to
or at the start of the IEP meeting on March 16, 2017.
Tr. of Admin. Hr’g (Oct. 30, 2017) at 77-78, Dkt. No. 99
(“If I insinuated that I received th[e] [March 16, 2017
IEP] at [the] March 16 meeting, that is not true.”); accord Tr. of Admin. Hr’g (Nov. 2, 2017) at 467-68, 476-77
(Whiteley), Dkt. No. 102 (confirming that the draft IEP
at the March 16, 2017 meeting did not have placement
filled in). Moreover, even if the placement recommendation had been written into the draft prior to the
March 16, 2017 meeting, it is not clear that such a fact
would evidence pre-determination. See Deal, 392 F.3d
at 858 (explaining that school officials are generally
“permitted to form opinions and compile results prior
to IEP meetings” so long as those officials “come to the
meeting with suggestions and open minds, not a required course of action”) (citing N.L. ex rel. Mrs. C. v.
Knox Cty. Schs., 315 F.3d 688, 693-94 n.3 (6th Cir.
2003)). And “[s]o long as they do not deprive parents of
the opportunity to meaningfully participate in the IEP
development process, draft IEPs are not impermissible
under the IDEA.” M.M. ex rel. A.M. v. New York City
Dep’t of Educ., 583 F. Supp. 2d 498, 506 (S.D.N.Y. 2008)
(citing Deal, 392 F.3d at 858; Nack ex rel. Nack v. Orange City Sch. Dist., 454 F.3d 604, 611 (6th Cir. 2006)).
Parents offer no further evidence.

App. 49
Accordingly, the Court holds that the fact that
members of the IEP team may have arrived at the
March 16, 2017 meeting with print-outs of a draft IEP
is not evidence of pre-determination.
4. Parental Participation
Parents argue that because Po‘okela Maui and
other potential, non-AMS placements were not discussed until the fifth and final IEP meeting on March
16, 2017, they were denied full participation in the IEP
process. OB at 29-33, Dkt. No. 123; see also, e.g., Tr. of
Admin. Hr’g (Oct. 30, 2017) at 32-34 (Father), Dkt. No.
99; Tr. of Admin. Hr’g (Oct. 31, 2017) at 284, 313
(Mother), Dkt. No. 100. This argument fails for three
reasons.
First, the record clearly shows that Parents did
actively and substantially participate in the creation
of Student’s March 16, 2017 IEP.15 Indeed, Parents attended all five IEP meetings (including the final meeting that focused on LRE and the placement decision)
as members of the IEP team (see, e.g., Tr. of Admin.
Hr’g (Nov. 1, 2017) at 391, Dkt. No. 101), and by all accounts, they discussed AMS as their preferred placement for Student throughout the IEP development
process. See, e.g., Tr. of Admin. Hr’g (Nov. 1, 2017) at 324,
328, 350, 390-91 (Wittenburg), Dkt. No. 101 (stating
15

See Decision at 23, Dkt. No. 97-29 (distinguishing Doug C.
v. Haw. Dep’t of Educ., 720 F.3d 1038 (9th Cir. 2013), “because
the parent was not present at the IEP meeting, and the DOE held
the meeting without him”).

App. 50
that Parents “did talk a lot about AMS and the program and how [Student] was doing there” throughout
all of the IEP meetings, including the meeting on
March 16, 2017). See Hanson, 212 F. Supp. 2d at 487
(rejecting plaintiffs’ assertion of a procedural violation
because the parents “were present at all the meetings
and were thereby given a full opportunity to participate in the formulation of the IEP”). Moreover, “[w]hen
the IEP team discussed the option of placement in a
[public separate facility] at the March 16, 2017 IEP
meeting, Parents readily participated and the discussion lasted 27 minutes.” Decision at 24, Dkt. No. 97-29;
Tr. of Admin. Hr’g (Nov. 2, 2017) at 414-16, 421, 446,
455-56, 491, 507-08 (Whiteley), Dkt. No. 102 (stating
that, although there was no “formal discussion” about
a private separate facility during the March 16, 2017
IEP meeting, “[i]t was mentioned throughout the discussion” about other options on the LRE continuum).
Indeed, contrary to their assertion that the final IEP
meeting was cut short after Principal Wittenburg indicated that the March 16, 2017 IEP could be implemented at Po‘okela Maui (see Reply at 8, Dkt. No. 133
(suggesting that the DOE “refuse[d] to even discuss retaining [Student] at AMS and den[ied] Plaintiffs the
opportunity to explain why AMS is the LRE for [Student]”)), the record shows that Parents requested further discussion, and the IEP team complied. Decision
at 24, Dkt. No. 97-29; see also Decision at 14-15 (FOF
63) (citing CD of IEP Meeting (Mar. 16, 2017) at
1:00:43-1:05:05, 00:00-12:57, Dkt. No. 105-5 at 17).
Specifically, Mother “handed out documents regarding
LRE to the IEP team,” which the IEP team discussed

App. 51
for “approximately four minutes” before taking a short
break. Decision at 24, Dkt. No. 97-29. As the Decision
explains:
[a]fter the break, the discussion lasted another 13 minutes. Parents raised their concerns about the [autism resource teacher at
Po‘okela Maui], stated she was unethical, and
they had another current complaint about her.
Father stated there’s “no way in hell I’m going
to have her in charge of my kid’s program.” He
further stated that if he had his way, the [autism resource teacher] would not have her
BCBA license within a few months and the
[public separate facility] would have to be run
by someone else. Father said the [public separate facility] was a “joke” and was not an improvement over the private facility . . . Principal
made an offer of FAPE at the [public separate
facility]. Parents argued that all the placement options were not discussed and Principal replied that all the options, such as Home
Hospital did not have to be discussed. Parents
rejected the offer of FAPE and said they did
not have ample discussion.
Decision at 24, Dkt. No. 97-29; see also Tr. of Admin.
Hr’g (Nov. 1, 2017) at 390-91 (Wittenburg), Dkt. No.
101 (noting that she responded to Mother’s concerns
about why placement should continue at AMS, and not
at Po‘okela Maui, at the end of the March 16, 2017
meeting).
Second, Parents’ contention that they were unable
to meaningfully participate in the IEP formulation

App. 52
process because they were unaware of Po‘okela Maui
prior to the March 16, 2017 IEP meeting is both contradicted by the record and legally unsound. Indeed,
although Parents have repeatedly claimed that they
had never heard of Po‘okela Maui until one hour and
twenty minutes into the March 16, 2017 IEP meeting
(e.g., Tr. of Admin. Hr’g (Oct. 30, 2017) at 34 (Father),
Dkt. No. 99; Tr. of Admin. Hr’g (Oct. 31, 2017) at 272
(Mother), Dkt. No. 100; Tr. of Admin. Hr’g (Nov. 2, 2017)
at 581 (Father), Dkt. No. 102), AHO Somerville found
that claim to be incredible based on testimony and
other evidence in the Administrative Record:
Father also testified that he had never
heard of the [public separate facility Po‘okela
Maui] until an hour and 20 minutes into the
fifth IEP meeting. This is not true. At the IEP
meeting, he did not ask specifics about the
school. Instead he asked, “is it open?” The
Principal [and one of the district resource
teachers] said “yes.” Then Father stated, “Lesley said they didn’t have staff.” Clearly, he was
aware of [Po‘okela Maui], again calling his
credibility into question.
Similarly, Mother testified that they were
not able to actively participate in the placement discussion, because they had no information about [Po‘okela Maui]. She testified
that [she] did not know where [Po‘okela Maui]
was or if it was open. However, at the IEP
meeting Mother stated that she was not sure
if the community activities could be implemented and if [Student’s] individual needs
could be met there, and noted the [public

App. 53
separate facility]’s location at “Lipoa.” Obviously, Mother knew the general location of
[Po‘okela Maui], again calling her credibility
into question.
Decision at 25, Dkt. No. 97-29; see, e.g., Decision at 14
(FOF 62), Dkt. No. 97-29 (citing, in relevant part, CD
of IEP Meeting (Mar. 16, 2017) at 33:32-1:00:42, Dkt.
No. 105-5 at 17). The Court defers to AHO Somerville’s
careful credibility determinations here and is unpersuaded by Parents’ contention (see OB at 37-38, Dkt.
No. 123) that AHO Somerville’s findings are erroneous
and/or do not support the above conclusion. See B.S.,
82 F.3d at 1499 (citations omitted); Wartenberg, 59 F.3d
at 891 (citation omitted); L.E., 435 F.3d at 389 n.4 (citation omitted).
Moreover, even if Parents had been ignorant of the
existence of a public separate facility on Maui prior to
the March 16, 2017 IEP meeting, there is nothing in
the IDEA requiring the DOE to allow parents to visit
the school of the proposed placement prior to finalizing
their child’s annual IEP. See Hanson, 212 F. Supp. 2d
at 487 (noting the absence of caselaw “holding that under the IDEA parents must be permitted to observe the
proposed placement prior to an IEP decision in order
to be able to fully participate in the process”). Rather,
the statute requires merely that parents be active
partners in the process. Here, Parents did actively participate, as noted above. Id. As such, it is sufficient that
other members of the IEP team had first-hand information to assist in determining whether Student’s
March 16, 2017 IEP could be implemented at Po‘okela

App. 54
Maui. See, e.g., Tr. of Admin. Hr’g (Nov. 1, 2017) at 400,
404-05, 407 (Wittenburg), Dkt. No. 101 (admitting that
her own knowledge of the student population at
Po‘okela Maui on March 16, 2017 was limited, but explaining that various other members of the IEP team
provided information about the facility and whether
Student’s March 16, 2017 IEP could be implemented
there).
Third, although the IDEA requires the DOE to
provide Parents with an opportunity for meaningful
participation in the development of an IEP, “the Act
does not explicitly vest parents with a veto power over
any proposal or determination advanced by the educational agency regarding a change in placement.” Decision at 24, Dkt. No. 97-29 (citing Burlington Sch.
Comm. v. Dep’t of Educ., 471 U.S. 359, 368-69 (1996);
20 U.S.C. § 1401(19) (1982)); see also Laddie C., 2009
WL 855966 at *4 (“The mere existence of a difference
in opinion between a parent and the rest of the IEP
team is not sufficient to show that the parent was denied full participation in the process, nor that the
DOE’s determination was incorrect.”). Indeed, “[i]f the
Parents do not agree with the DOE’s offer [of FAPE],
they do not have to accept it,” and they “have the right
to file a due process complaint pursuant to Hawaii Administrative Rules § 8-60-61.” Decision at 24, Dkt. No.
97-29 (citing Doe by Gonzales v. Maher, 793 F.2d 1470,
1490 (9th Cir. 1986) (explaining that if a consensus
cannot be reached regarding the formulation of an IEP,
“the agency has the duty to formulate the plan to the
best of its ability in accordance with information

App. 55
developed at the prior IEP meetings, but must afford
the parents a due process hearing in regard to that
plan”), aff ’d as modified sub nom. Honig v. Doe, 484
U.S. 305 (1988)). The instant matter arises out of just
such a challenge by Parents.
The Court therefore holds that Parents “have not
shown that the March 16, 2017 IEP denied Student a
FAPE” (Decision at 32, Dkt. No. 97-29) and AFFIRMS
the AHO’s Decision.
IV. Parents’ Request for Reimbursement
A parent or guardian is “entitled to reimbursement only if a federal court concludes both (1) that the
public placement violated the IDEA, and (2) that the
private school placement was proper under the Act.”
Cty. of San Diego, 93 F.3d at 1466 (citing Florence Cty.
Sch. Dist. 4 v. Carter, 510 U.S. 7 (1993)). Because the
Court holds that the March 16, 2017 IEP does not deny
Student a FAPE, Parents are not entitled to reimbursement for Student’s private educational expenses
via AMS during the 2017-18 school year. Baquerizo,
826 F.3d at 1189 (citing Cty. of San Diego, 93 F.3d at
1466).
CONCLUSION
The AHO’s December 20, 2017 Decision (Dkt. No.
97-29) is AFFIRMED.
IT IS SO ORDERED.

App. 56
DATED: August 7, 2018 at Honolulu, Hawai‘i.
[SEAL]

/s/ Derrick K. Watson
Derrick K. Watson
United States District Judge

J. G. v. State Of Hawaii, Department Of Education, et al.
CIV. NO. 17-00503 DKW-KSC, ORDER AFFIRMING
THE DECEMBER 20, 2017 DECISION OF THE
ADMINISTRATIVE HEARINGS OFFICER

App. 57
[SEAL]
OFFICE OF ADMINISTRATIVE HEARINGS
DEPARTMENT OF COMMERCE AND
CONSUMER AFFAIRS
STATE OF HAWAI‘I
In the Matter of

DOE-SY1617-067A

STUDENT, by and
through his Parents,

FINDINGS OF FACT,
CONCLUSIONS OF LAW
AND DECISION

Petitioners,

(Filed Dec. 20, 2017)

vs.
DEPARTMENT OF
EDUCATION,
STATE OF HAWAI‘I,
Respondent.

FINDINGS OF FACT,
CONCLUSIONS OF LAW AND DECISION
I.

INTRODUCTION

On March 31, 2017, the Department of Education,
State of Hawai‘i (“Respondent” or “DOE”) received a
Request for a Due Process Hearing (“Request”) under
Hawai‘i Administrative Rules (“HAR”) Title 8, Chapter
60 from Student, by and through his Parents, (collectively referred to as “Petitioners”) in DOE-SY1617-067.
On May 5, 2017, Petitioners filed an Amended Request
in DOE-SY1617-067A regarding alleged violations in
Student’s March 16, 2017 Individualized Education
Program (“IEP”).

App. 58
On June 6, 2017, a pre-hearing conference in the
above-captioned matter was conducted by the undersigned Hearings Officer. Father appeared pro se with
Advocate Robert C. Thurston, Esq.; Respondents were
represented by Kunio Kuwabe, Esq. and Department
of Education District Educational Specialist (“DES”)
G.C. Father, Mr. Thurston, and DES G.C. participated
via telephone conference. By agreement of both parties, the hearing was scheduled for October 16 through
20, 2017. Mr. Kuwabe requested an extension of the 45day period in which a final decision is due be extended
from July 20, 2017 to September 2, 2017, and from September 3, 2017 to October 17, 2017, and from October
18, 2017 to December 1, 2017. Petitioners had no objection. The extension was granted on June 8, 2017.
On July 18, 2017, Petitioners informed Mr. Kuwabe that they were in the process of obtaining Samuel Shnider, Esq. as counsel. Mr. Shnider had a conflict
with the hearing dates, and Petitioners requested a
continuance. On August 4, 2017, Mr. Shnider contacted
the Hearings Officer. A telephone conference was
scheduled for August 9, 2017 to set the dates for the
hearing and pre-hearing motions. On August 4, 2017,
Mr. Shnider filed a Substitution of Counsel and a Request for Continuance of Hearing Date and Consent to
Extension of Decision Deadline.
On August 9, 2017, a status conference was conducted by the undersigned Hearings Officer. Petitioners were represented by Mr. Shnider; Respondents
were represented by Mr. Kuwabe and DOE DES M.R.
Mr. Shnider and DES M.R. participated via telephone

App. 59
conference. The hearing was rescheduled to October
30, 2017 through November 3, 2017. Pre-hearing motions, would be heard on October 9, 2017 at 9:00 a.m.
at the Office of Administrative Hearings, and would be:
a) filed with the Office of Administrative Hearings, no
later than 4:30 p.m. on September 25, 2017; b) served
upon the opposing party by personal service or by first
class mail; and c) received by the opposing party no
later than September 25, 2017. The response to any
motion was to be filed and served by October 2, 2017.
On August 9, 2017, Petitioners filed their Motion
to Establish Burden of Proof. On August 9, 2017, Respondents filed their Memorandum in Opposition to
the Motion [sic] Establish Burden of Proof. On August
11, 2017, Petitioners filed an Amended Declaration of
Howard Greenberg. On August 15, 2017, Petitioners
filed their Reply in Support of their Motion to Establish Burden of Proof.
On September 27, 2017, a hearing on the Motion
to Establish Burden of Proof was held before the Hearings Officer. Petitioners were represented by Mr.
Shnider; Respondent was represented by Mr. Kuwabe.
Mr. Shnider participated via telephone. Both parties
presented oral arguments. The Hearings Officer denied the Motion to Establish Burden of Proof and filed
a written Order on October 11, 2017.
On September 27, 2017, Petitioners submitted a
letter requesting a site visit in their Request for Due
Process Hearing dated May 5, 2017. Petitioners requested the parties make a site visit to the private

App. 60
facility and meet the staff there. On September 27,
2017, Respondent submitted a letter opposing the site
visit. On September 29, 2017, the Hearings Officer filed
an Order Denying Petitioners’ Request for Site Visit.
On October 10, 2017, Petitioners filed a Complaint
appealing the Hearings Officer’s pre-hearing Order
Denying Petitioners’ Motion to Establish Burden of
Proof, Order Denying Petitioners’ Request for Site
Visit, and Motion to Stay Administrative Proceedings
Pending Resolution of Issues on Appeal at the Hawaii
U.S. District Court.
On October 10, 2017, Petitioners filed a Verified
First Amended Complaint and Emergency Motion for
a Temporary Restraining Order and Injunction. On October 25, 2017, U.S. District Court Judge Derrick K.
Watson denied the Complaint.
On October 10, 2017, Petitioners filed a Motion to
Stay Administrative Proceedings Pending Resolution
of Issues on Appeal at the Office of Administrative
Hearings. On October 13, 2017, Respondents filed their
Memorandum in Opposition to the Motion to Stay Administrative Proceedings Pending Resolution of Issues
on Appeal. On October 16, 2017, the Hearings Officer
denied the Motion to Stay Administrative Proceedings
Pending Resolution of Issues on Appeal. On October
18, 2017, Petitioners filed their Reply in Support of
their Motion to Stay Administrative Proceedings Pending Resolution of Issues on Appeal.
On October 19, 2017, Respondent’s [sic] filed their
Witness List, Exhibit List, and Exhibits. On October

App. 61
23, 2017, Petitioners filed their Witness List, Exhibit
List, and Exhibits.
On October 26, 2017, Petitioners filed a Notice of
Interlocutory Appeal to the Ninth Circuit Court of Appeals.
On October 26, 2017, Petitioner [sic] filed its Motion to Stay Proceedings Pending Appeal at the U.S.
District Court. On October 26, 2017, U.S. District Court
Judge Watson denied the Motion.
On October 26, 2017, Petitioners filed its Emergency Second Motion to Stay Administrative Proceedings Pending Resolution of Issues on Appeal pending
their appeal to the Ninth Circuit Court of Appeals at
the Office of Administrative Hearings. On October 26.
2017, Respondent filed its Memorandum in Opposition
to Petitioners’ Emergency Second Motion to Stay Administrative Proceedings Pending Resolution of Issues
on Appeal. The Hearings Officer denied the Motion on
October 27, 2017.
On October 30, 2017, the hearing was commenced
at the Ralph Rosenberg Court Reporters’ Offices at
2233 Vineyard Street, Wailuku, Maui, Hawai‘i by the
undersigned Hearings Officer. Petitioners were represented by Mr. Shnider; Parents and Student were present. Respondent was represented by Mr. Kuwabe;
DES M.R. was present on behalf of Respondent.
On October 31, 2017, Petitioners rested their casein-chief. Mr. Shnider made an oral motion for directed

App. 62
verdict. Mr. Kuwabe objected. The Hearings Officer denied the oral motion.
The hearing was concluded on November 2, 2017.
The transcripts would be available on November 17,
2017. Mr. Kuwabe orally requested an extension of the
45-day time limit in which a final decision is due from
December 2, 2017 to January 15, 2018. Mr. Shnider
had no objection. The extension was granted on November 7, 2017.
On December 1, 2017, Petitioners and Respondent
filed their Closing Briefs.
II.

ISSUES PRESENTED

In their May 5, 2017 Amended Request, Petitioners allege procedural and substantive violations of the
Individuals with Disabilities Education Act (“IDEA”).
Specifically, Petitioners allege that the DOE denied
Student a free appropriate public education (“FAPE”)
in Student’s March 16, 2017 IEP. Petitioners raise the
following issues:
A.

The DOE predetermined Student’s placement
at the DOE Public Separate Facility (“PSF”);
and

B. The PSF is not the least restrictive environment (“LRE”); and Petitioners request the following relief:
A. Find the private center as the appropriate
and stay put placement;

App. 63
B. Reimbursement for tuition for private services; and
C.

Compensatory education.

Having reviewed and considered the evidence and arguments presented, together with the entire record of
this proceeding, the Hearings Officer renders the following findings of fact, conclusions of law and decision.
III. FINDINGS OF FACT
1. Student was born on April 10, 2003. Resp. Exh.
1 at 002.
2. Student has been diagnosed with Autism
Spectrum Disorder (“ASD”), Level 3 (requiring very
substantial support) with early language impairment,
Anxiety Disorder, and Obsessive-Compulsive Disorder
(“OCD”). Pet. Exh. 4 at 121-122.
3. Student was found eligible for IDEA services
under the ASD criteria. Resp. Exh. 3 at 112.
4. Father testified that the DOE does not have
the resources to educate children with ASD. When Student exhibited a negative behavior, he would be rewarded by going to the sensory room. Father testified
that it would turn children into “monsters.” Father testified he removed Student from the DOE elementary
school when he was six years old after Mother witnessed Student being carried “upside down . . . like an
animal on a pole.” Parents removed Student from the

App. 64
DOE elementary school in October 2009. Pet. Exh. 2 at
3; TR 16:18 – 18:6.
5. On April 25, 2010, the private doctor1 wrote
a letter stating Student “is an extremely unruly,
difficult-to-control-boy, who is essentially nonverbal.”2
The private doctor gave Student a “prescription” for
applied behavioral analysis (“ABA”) 40 hours per
week.3 Pet. Exh. 14.
6. Student has attended the private facility for
the last seven years. Parents are the sole owners of the
private facility. Father testified that Student has been
learning and improving there. The private facility uses
a multisensory mode of teaching overseen by a board
certified behavioral analyst (“BCBA”). Student learns
visually, auditorily, kinesthetically, and tactilely. TR
12:10-22; TR 15:7-21; TR 66:2-9.
7. The private facility has a customized program
for Student’s specific and unique needs. Student has
registered behavioral technicians (“RBTs”) that are
overseen by a BCBA, speech language therapy (“SLT”),
community outings, reading, math, and a sensory program to help regulate him. Currently, there is no licensed teacher at the private facility, and there are no
plans to hire one. TR 18:9 – 19:22; TR 81:11 – 86:1.
1

According to the private doctor’s letterhead, he specializes
in Allergy and Environmental Medicine, and Childhood Disorders. His address was in Oregon City, Oregon.
2
The letter did not state Student has ASD.
3
The address on the “prescription” was in Oregon City, Oregon.

App. 65
8. The private facility is next to a grocery store,
library, and shops. Student’s program includes visits to
these places. The private facility is across a large park
with tennis and basketball courts used for outdoor activities. The private facility shares a campus with a
DOE Charter School. TR 44:8-23; 499:3-12.
9. Father testified that the private facility has 12
full-time students that have high functioning ASD.
Student feels more comfortable with other children
that have high functioning ASD. He does not hate neurotypical peers. TR 15:24 – 16:15; TR 45:23 – 46:2.
10. Student has issues with fluorescent lighting
and sensory issues with smells and sounds. The private facility does not have fluorescent lights. TR 14:8 –
15:6.
11. Father testified that Student has behavioral
issues that require support. He has severe transition
issues that can result in self-injurious behaviors
(“SIBs”), such as biting his hands. Father testified that
a change in Student’s program and placement would
be “catastrophic.” TR 11:10 – 12:7.
12. BCBA C.H. testified as an expert in ABA. TR
183:13-16.
13. BCBA C.H. is the regional manager for the
Center for Autism and Related Disorders (“CARD”).
TR 179:17-19.
14. BCBA C.H. worked with Student from 2011
through June 2016, and periodically since then on an
as-needed basis. Up until 2016, she consulted with

App. 66
Student’s team. BCBA C.H. conducted Facetime observations with Student, and she would meet with him
every three months in person. TR 185:14-22; TR 194:22
– 195:1.
15. BCBA C.H. testified that Student had transition issues including transitions within and out of the
private facility and with new staff members. He would
refuse to respond, speak at very low levels, try to elope
from the learning area, and engage in nonmotivated
learning. When Student transitioned out of the center
and into the community, he could exhibit SIBs such as
biting his hand, hitting himself in the head, falling to
the floor, pushing through others, and engage in obsessive behaviors and vocal protests. TR 186:2-25.
16. BCBA C.H. stated that when Student had
new staff members introduced to his program, they
would overlap in training with a current staff member.
This overlap in training could last months. TR 187:618.
17. When BCBA K.G. started working with Student, she went an “extensive desensitization process.”
She observed Student, and spoke with his previous
BCBAs and RBTs. She testified if Student were to have
a new staff member without the desensitization process, Student would exhibit maladaptive behaviors,
and his noncompliance would increase. TR 239:4 –
240:21.
18. BCBA C.H. witnessed Student working with
his current BCBA K.G. Through the use of interventions, Student is not exhibiting as many transitional

App. 67
issues. Student has gone into the community to participate in activities with relatively little to no transitional issues. When Student has transitional issues,
the staff follows the behavior intervention plan
(“BIP”). BCBA C.H. testified that recently, Student has
exhibited little to no SIBs through the use of the BIP.
TR 188:6 – 189:2.
19. BCBA C.H. testified that Student has made
progress at the private facility and is receiving an educational benefit there. Student’s communication and
motor abilities have improved, he has acquired learning skills, and the skills are staying in his repertoire.
He has shown reductions in some of his aggressive and
obsessive behaviors and SIBs, to the extent that he is
capable of learning. He completed a table-time activity,
and engaged in spontaneous speech. BCBA C.H. stated
she was not aware of any planned inclusion activities
with the neurotypical peers at the Charter School that
share the same campus as the private facility. TR
192:19 – 194:11; TR 195:2-13; TR 225:1-9.
20. BCBA C.H. testified that it is better for Student to be with higher functioning peers so that he can
model socially appropriate behaviors. Student had access to neurotypical peers at the private facility during
special activities, or when other students’ siblings were
there. BCBA C.H. stated that a student with Down’s
syndrome might possess more skills than Student. TR
200:5-10; TR 217:17 – 218:2; TR 223:13-24.
21. BCBA K.G. testified that neurotypical and
higher functioning children with ASD can help

App. 68
Student with his IEP goals, peer interaction, and communication skills. TR 241:9 – 242:12.
22. BCBA K.G. testified that there are no
planned inclusion activities with neurotypical peers
from other schools. Interaction with neurotypical peers
in the community is not coordinated. Student will go to
place, such as a park, in anticipation that other children will be there. TR 253:3 – 255:14.
23. The ART testified as an expert in the field of
ASD and special education. TR 522:10-14.
24. The ART has been certified as a BCBA doctorate level (“BCBA-D”) since 2013 and she is licensed
as a Behavior Analyst in the state of Hawaii. TR 519:12
– 520:1.
25. The ART visited the private facility many
times to observe children and their programs. TR
28:18-22.
26. On May 22, 2015, Father filed a complaint
with the Behavior Analyst Certification Board
(“BACB”) alleging the ART had committed ethical violations contrary to her BCBA licensure. He claimed the
ACT [sic] provided: 1) false testimony which led to the
termination of services from the private facility; 2) testimony based on observations of children without receiving authorization; and 3) testimony without
accurate information. Father also claimed HIPAA violations and stated that the ART had testified at other
hearings that children that attended the private

App. 69
facility were “being harmed” by the program. Pet. Exh.
3, 4; TR 26:13 – 27:4.
27. On September 2, 2015, the BACB issued a
“Confidential BACB Advisory Warning” finding that
the ART “did not breach the BACB’s Professional and
Ethical Standards.” The BACB clarified that if the ART
“provides testimony or service recommendation in the
future that are not data-driven and pursuant to acceptable applied behavior analytic (ABA) practices,
then such testimony or service recommendations
should not be provided in conjunction with [the ART’s]
BCBA-D credential.” Pet. Exh. 4; TR 27:4-24.
28. The BACB Advisory Warning did not affect
the ART’s BCBA-D certification or licensing. TR 525:5
– 526:1.
29. After the Advisory Warning was issued, Father sent the ART an email stating the he “was
ashamed of her.” The ART did not visit the private facility after the complaint was filed and Advisory Warning was issued. TR 28:23 – 29:20.
30. Mother testified that she knew the ART was
a DES in March 2017, because Mother is an administrator, and “it’s kind of a small world.” TR 305:22-25.
31. Private Speech Language Pathologist
(“SLP”) O.S. testified that she has been working with
Student for seven years and has seen progress. When
she started working with Student, he required maximal cues and prompting; Student is now capable of
saying six to eight-word sentences given picture cues

App. 70
and models. His language is more spontaneous in a
structured setting. She stated that Student has “benefitted tremendously” from his placement at the private
facility. Student needs a level of safety and comfort and
a feeling that someone knows him and cares about him
in a well-established environment in order to make
progress. TR 106:7 – 109:19.
32. Private SLP O.S. testified that a change in
placement to a different environment with people who
do not know him “would have a fairly devastating impact” on Student, his communication could regress,
and he could have SIBs. Student’s difficulty with transitions is well-documented, even with people he is familiar with. He also has transition issues going from
the classroom to the bathroom or outside. She stated
that “as long as he was in his established routine with
his established people, he was doing reasonably well,
but the minute that you took him outside of any of that
. . . he would start to bang his head and start to yell
and become completely dysregulated.” The more severe
the transition, the more detrimental it is. A transition
to new staff could take months. TR 109:22 – 114:17.
33. Private SLP O.S. testified that Student
would best progress at the private facility. TR 116:23 –
117:6.
34. Private SLP J.B. testified as an expert in the
field of speech language pathology. TR 137:7-10.
35. Private SLP J.B. has worked with Student
since 2013. She focuses on Student’s speech and language goals and works with Parents and the staff at

App. 71
the private facility to facilitate his goals. TR 137:16 –
138:6.
36. Private SLP J.B. testified that Student has
progressed in the time she has worked with him. She
has seen improvement in his voice volume and response to visual pictures. She believed that Student
was “being serviced appropriately.” TR 138:9 – 139:3.
37. Private SLP J.B. testified that his placement
at the private facility is appropriate from her perspective of a SLP, because Student has a small group of
peers and staff that he interacts with. They are familiar with Student’s communication style and have
worked with the SLP to learn the strategies that work
best. Student is comfortable and familiar with his
peers, and private SLP J.B. has used the peers in some
of his speech sessions to practice interacting and communication strategies. She testified that transitions
are a challenge for Student. When he is around new
people he might become frustrated and have negative
behaviors; he would need extra time to get focused and
could miss a learning opportunity. TR 139:16 – 140:24.
38. Private SLP J.B. testified that when a new
staff member is introduced to Student, they would pair
with a familiar person. She would demonstrate the
goals they were working on and model the strategies
they were using. In her expert opinion, she stated that
to implement Student’s speech and language goals, he
would need familiar staff and his small group of peers.
Student thrives with familiarity and routine, structure, and schedule. She believed it was appropriate for

App. 72
Student to continue his placement at the private facility. TR 141:2 – 149:17.
39. The special education (“SPED”) teacher testified that she had observed Student at the private facility in the 2015-2016 and 2016-2017 school years to
determine if Student’s IEP was being implemented.
Resp. Exh. 3 at 357-359.TR 412:1-25.
40. On February 5, 2016, the SPED teacher observed Student at the private facility for one hour and
15 minutes. During that time, two dividers separated
Student from the rest of the class. When the class exited the room for an outside activity, Student remained
behind and continued with his table activity, isolated
from his peers. Resp. Exh. 3 at 351.
41. The SPED teacher also observed Student at
the private facility on May 6, 2016, May 18, 2016, August 22, 2016, and October 4, 2016. On December 13,
2016, the SPED teacher observed Student in the community stopping on the road and going to Times Supermarket. Times Supermarket had fluorescent lighting.
The SPED teacher never observed Student interacting
with typically developing peers, higher-functioning
children with ASD, or with general education students
at the Charter School. Resp. Exh. 4 at 309-311, 321323, 329-331, 344-346; TR 431:12 – 432:5; TR 499:24502:5.
42. The ART developed the public separate facility (“PSF”) from an idea to an actual location. She continues to support the PSF by providing resources and
making sure that it is running smoothly. TR 517:15-24.

App. 73
43. The PSF serves students with ASD and those
that need a more restrictive environment than the
Home School. The PSF has a functional life skills curriculum, community-based instruction (“CBI”), the opportunity to work on skills to help them navigate the
community, and have access to nondisabled peers. The
curriculum at the PSF has an “off-site component,” and
students will be able to regularly practice what they
learn in a variety of community settings. Pet. Exh. 5;
TR 327:9-23.
44. The Principal testified that she attended the
open house at the PSF prior to Student’s 2017 IEP
meetings. The PSF served students with ASD and
those that need a more restrictive environment than
the Home School. TR 327:4-23.
45. On February 22, 2017, the Home School conducted an IEP meeting. Parents, private BCBA K.A.,
Principal, District Resource Teacher (“DRT”) S.R.,
DOE SLP, DOE Occupational Therapist (“OT”), and
SPED and general education teachers were present.
The IEP meeting was continued to February 24, 2017.
Resp. Exh. 2 at 076.
46. On February 24, 2017, the Home School conducted an IEP meeting. Parents, private BCBA K.A.,
Principal, DRT S.R., DOE SLP, DOE OT, and SPED
and general education teachers were present. The IEP
meeting was continued to March 13, 2017. Resp. Exh.
2 at 077.
47. On March 13, 2017, the Home School conducted an IEP meeting. Parents, private BCBA K.A.,

App. 74
Principal, DRT S.R., DOE SLP, DOE OT, and SPED
and general education teachers were present. The IEP
meeting was continued to March 15, 2017. Resp. Exh.
2 at 078.
48. On March 14, 2017, Parents sent the IEP
team members an email sharing Student’s unique
needs. Parents stated that the IEP did not address the
need to lower Student’s SIBs, spitting or holding his
saliva, toileting issues, sensory issues, and OCD behaviors that impede his learning. Parents also stated Student “is also adversely affected when being in a school
environment around neuro-typical children. It lowers
his self-esteem, distracts his ability to focus and is
overstimulating to his unique neurobiology. In fact, the
Charter School that shares the same church grounds
as my son’s program politely agreed to move their
morning circle assembly as they had noted that it was
causing self-injurious behaviors for my son due to their
meeting proximity.” Parents requested that the IEP
specifically state the grocery stores, post office, neighborhood malls, restaurants, and possible work site areas. Parents requested that the IEP team keep Student
at the private facility. Pet. Exh. 7.
49. On March 15, 2017, the SPED teacher responded to Parents’ March 14, 2017 email. She stated
that the email would be discussed at the IEP meeting.
Resp. Exh. 4 at 419.
50. On March 15, 2017, the Home School conducted an IEP meeting. Parents, private BCBA K.A.,
Principal, DRT S.R., DOE SLP, DOE OT, and SPED

App. 75
and general education teachers were present. The concerns raised in Parents’ March 14, 2017 email were discussed in full. Resp. Exh. 2 at 079; Resp. Exh. 7 at 1008.
51. At the March 15, 2017 IEP meeting, Mother
testified that the IEP team did not want to put specific
streets or the names of stores in the IEP. TR 274:14 –
284:3.
52. The team explained that they do not list specific stores or streets in the IEP, and Mother accepted
this answer. Resp. Exh. 7 at 1008, CD2 14:41-18:31.
53. The Principal testified that specific places
are not listed in the IEP, because the IEP should be
implemented any place. The goal should state Student
is able to cross the street, not a “particular street.” TR
330:5 – 331:12.
54. At the IEP meeting DRT S.R. discussed busing as a transportation option. Parents said that Student would need an aid when riding the bus, and the
IEP team said that this would be addressed through a
transition plan. When Mother questioned why transportation services were not in Student’s previous IEP,
DRT S.R. stated that this was a SPED service offered
to all eligible students, and she preferred to include it
in the IEP. Father was not opposed to this, and stated
that Student needed to learn how to ride the bus. Resp.
Exh. 7 at 1008, CD2 49:40-51:23.
55. Mother testified that the DRT S.R. told Parents, “you will need transportation [services], you
should take it.” Mother declined the services and

App. 76
stated that they did not need transportation, because
Parents drove Student to the private facility. Mother
testified that DRT S.R. insisted that she accept the
transportation services. TR 274:14 - 284:3.
56. The first four IEP meetings lasted two hours
each. Resp. Exh. 7 at 1005-1009; TR 271:19-20.
57. On March 16, 2017, the Home School conducted an IEP meeting that was continued from March
15, 2017. Parents, private BCBA K.A., Principal, DRT
S.R., DOE SLP, DOE OT, and SPED and general education teachers were present. The IEP team considered
Student’s assessment reports, IEP progress reports,
data from the private facility, input from Parents and
personnel from the private facility, a skills checklist
from Parents, and observation notes. Pet. Exh. 10;
Resp. Exh. 2 at 080.
58. The IEP team discussed the LRE continuum
and used a worksheet as a demonstrative aid. The
worksheet was originally projected at the meeting, but
after there was an issue with the computer, the IEP
team worked off of the hard copy of the worksheet instead. The Principal facilitated the discussion and the
SPED teacher wrote notes on the worksheet. Resp.
Exh. 2 at 82, 83; Resp. Exh. 7 at 1009, CD 10:23-11:06,
17:10-17:23; TR 322:6 – 324:5.
59. The IEP team started the LRE discussion
with placement in a general education setting and

App. 77
reviewed the three LRE factors.4 DRT S. R. said that
generally speaking, students respond to being with
their peers. Father stated that being with peers would
have an adverse effect on Student. Student keeps a distance from neurotypical peers, because they are upsetting to him. If Student was placed in a regular
classroom, he would not work, there would be no educational benefit, and he would be disruptive to other
students. DRT S.R. asked if Student needed a smaller
more controlled environment with similarly developing peers. Father stated that Student likes to be with
children with ASD, and they do not have to be on the
same developmental scale. The private facility has
children who are higher functioning and lower functioning than Student. Student has not had much interaction with children with Down syndrome or other
disabilities, because they have impacted his selfesteem in the past. Father stated Student does not socialize with neurotypical peers and to be in a general
education setting would cause overstimulation and
Student would be disruptive. Father stated that Student benefits from being with children with ASD. The
Principal rejected placement in the general education
setting based on their discussion. Resp. Exh. 2 at 82,
83; Resp. Exh. 7 at 1009, CD 11:07-19:50; TR 322:6 –
324:5.
60. The IEP team then discussed placement in
general and special education setting. The IEP team
4

1) The educational benefits of placement in a regular class;
2) the non-academic benefits of such placement; and 3) the effect
of the student on the teacher and children in the regular class.

App. 78
stated Student could be on a diploma path there.
Mother stated Student could do that on-line. Father
stated it would be “ridiculous” for Student to be in general education; he would receive no benefit, and it
would be detrimental for him and the class. Father also
stated that Student would not benefit from the SPED
classroom because of the close proximity to the neurotypical peers on campus. He stated that they had to
ask the Charter School not to be so close to the outside
of the private facility’s building, because in [sic] causes
Student to have negative reactions inside the building.
Mother stated that they had to ask the Charter School
to stop “encroaching” on the private facility’s space.
When the Charter School would hold “morning circle,”
Student would scream when he walked by. The Principal rejected placement in the general education setting
based on their discussion. Father agreed. Resp. Exh. 2
at 82, 83; Resp. Exh. 7 at 1009, CD 11:07-19:50; TR
322:6 – 324:5.
61. The team next discussed placement in the
special education setting. The SPED teacher noted
that they could implement aspects of Student’s IEP
this setting. Mother stated that if Student is doing well
in one place, with people that know him and have a
history with him, he should not be moved. She said to
move him from one building to another for the “school’s
convenience” would not serve Student’s unique needs.
She stated it was not “one-size-fits-all” and referenced
the worksheet. The Principal responded that they
needed to discuss the three factors for each placement
option. Mother felt that if the team was talking about

App. 79
a transition or change, it would be more restrictive for
Student’s unique needs because he would need more
than one skills trainer. The Principal responded that
they had not made a decision yet, and they were still
going through the LRE continuum and were focusing
on Student’s needs. The team discussed the large environment and safety concerns for Student at the Home
School. It would be overstimulating. Father said when
Student was in a DOE School previously, he was isolated from his peers, did not have his needs met, and it
was not beneficial. Mother found it to be more restrictive. The SPED teacher noted that if Student attended
the Home School, he would be a member of the SPED
classroom. The SPED program was a very small group
of children, some of whom had ASD. The Principal rejected placement in the general education setting
based on their discussion. Father thanked the Principal. Resp. Exh. 2 at 82, 83; Resp. Exh. 7 at 1009, CD
26:58-33:25; TR 322:6 – 324:5.
62. The IEP team then discussed placement at a
PSF. Father asked, “is there such?” The Principal and
DRT S.R. stated there was. Father asked, “is it open?”
The Principal DRT S.R. said “yes.” Father stated, “Lesley said they didn’t have staff.” DRT S.R. explained the
PSF had staff, there were children attending, and they
could set up a tour any time for them. Parents were
told the teacher there was DRT C.T. and the BCBA was
the ART. The SPED teacher said the IEP could be implemented there, specific functional programming
could also be implemented, it had a small group of students, and individual learning opportunities. Mother

App. 80
said the “down-side” was they had filed a “state complaint” against the ART, and “that would be a problem.”
Father stated he couldn’t speak about the facility, because it was brand new. Student’s program at the private facility was seven years old, and he had familiar
people there that worked with him and knew his issues. Father said that Student has extreme needs, and
placement at the PSF was not in his best interest. He
stated that if Student was not doing well in a DOE
SPED program, then he would “probably send him to a
public separate facility” before a private facility. Father
focused on the detrimental and harmful effects that
would occur. DRT S.R. explained that the PSF focused
on functional skills, CBI, and cooperative skills.
Mother stated that she was not sure if the community
activities could be implemented and noted the PSF’s
location at “Lipoa” and if his individual needs could be
met there. The SPED teacher said that the IEP could
be implemented at the PSF and it would require a
transition plan. Resp. Exh. 2 at 82, 83; Resp. Exh. 7 at
1009, CD 33:32-1:00:42; TR 322:6 – 324:5.
63. Parents requested further discussion when
the Principal indicated that the offer of FAPE could be
made at the PSF. The Principal complied, and Mother
handed out documents regarding LRE to the IEP team.
They discussed Mother’s documents for approximately
four minutes, and the DOE SLP requested a short
break. After the break, Parents raised their concerns
about the ART, stated she was unethical, and they had

App. 81
another current complaint about her.5 Father stated
there’s “no way in hell I’m going to have her in charge
of my kid’s program.” He further stated that if he had
his way, the ART would not have her BCBA license
within a few months and the PSF would have to be run
by someone else. Father said the PSF was a “joke” and
was not an improvement over the private facility. He
accused the Principal of having “marching orders” from
the DOE district to cut costs. The Principal replied she
did not have “marching orders” and accepted the PSF
to be the LRE. Principal made an offer of FAPE at the
PSF. Parents argued that all the placement options
were not discussed and Principal replied that all the
options did not have to be discussed. Parents rejected
the offer of FAPE and said they did not have ample
discussion. Exh. 7 at 1009, CD 1:00:43-1:05:05, 00:0012:57.
64. The worksheet that the IEP team used was
entitled “Least Restrictive Environment; Justification
for Placement.” The SPED teacher’s notes of the LRE
discussion in factors one through three are listed below
and are categorized at positive (“+”) or negative (“-”).
The blank worksheet stated:
In conjunction with HAR Chapter 60, the team
must consider the following factors:
1. The educational benefits of placement in a regular class;

5

The ART testified that she has not visited the private facility since May 22, 2015. TR 525:5-526:1.

App. 82
2.

The non-academic benefits of such placement;

and
3. The effect of the student on the teacher and
children in the regular class.

REJECT

General Education Setting
(80% or more of the school
day)
General Education and
Special Education Setting

ACCEPT

Public Separate Facility

Public Residential
Facility
Private Residential
Facility
Homebound/Hospital

Private Separate Facility

REJECT

Special Education Setting

REJECT

DECISION

PLACEMENT

App. 83

+ IEP implemented
+ Functional Programming with
small group and individual

+ Implement aspects of IEP

- Curriculum not meaningful
+ Path to diploma

Factor 1
+ Respond to being with peers
- Needs smaller environment

- Safety Concerns
- Large environment
- Overstimulated
- Isolated
- Transition to new
staff/program/location
+ Similar peers
+ Access to the community
+ Functional life skills
+ Cooperative skills
+ Community-based
lessons
+ Longevity of current
program

Negative reaction to
neurotypical peers

RATIONALE
Factor 2
Overstimulated and
unable to

+ Member of Classroom
+ No foreseeable
negative effects on
teacher and
children
+ Group of friends

Behaviors and
accommodation/
Modifications impede
+ Member of classroom

Factor 3
Behaviors impede others

App. 84
Resp. Exh. 2 at 82, 83. TR 322:6 – 324:5; TR 423:2 –
424:9.
65. The SPED teacher testified that all of Student’s services, accommodations, and supports could be
provided at the PSF. She had observed other students,
grades five through nine at the PSF several times. All
the students at the PSF had ASD and were primarily
lower-functioning. The PSF had approximately five
students who needed more intensive supports, behaviorally and academically. The PSF has multiple sensory rooms, kitchen facilities, and it highlights
functional life skills. TR 416:5 – 418:14.
66. Mother testified that when the IEP team discussed placement in the LRE, the DOE used a “backwards pyramid” as a demonstrative aid. TR 272:20 –
273:7.
67. The IEP stated Student would “participate
with disabled peers during all school hours in a public
separate facility. He will have opportunities to interact
with non-disable [sic] peers during community outings.” Resp. Exh. 2 at 75.
68. The ART testified that Student would benefit
from inclusion opportunities with his general education peers at the Home School. TR 532:16 – 534:1.
69. The IEP included a transition plan to a PSF.
The transition plan would occur prior to and during
Student’s change of placement. The IEP stated,
“[b]ecause student had been in private separate facility for some time, a transition plan will be

App. 85
implemented to mitigate any potential harmful impact
him moving to a less restrictive environment and
transitioning to a new school. Factors to consider for
transition will include new people, new location, selfinjurious behaviors, potential regression, access to the
community, new program routines.” Resp. Exh. 2 at 74.
70. Father testified that there was no transition
plan. The DOE attempted to schedule a transition plan
meeting but Petitioners were out of the country. TR
38:14 – 41:3.
71. Father testified that Parents fully participated in the IEP in “everything except the placement
decision; that was never discussed.” He told the IEP
team that Student’s placement should continue at the
private facility. TR 32:24 – 33:22.
72. Father testified that he had never heard of
the PSF until an hour and 20 minutes into the fifth
IEP meeting. He thought that Student’s placement at
the PSF should have been discussed throughout all
five IEP meetings rather than at the end of the meetings. TR 34:17-22.
73. Mother testified that they were not able to
actively participate in the placement discussion, because they had no information about the PSF. She did
not know where the PSF was or if it was open. TR 284:15-18313:4-18.
74. Father disagreed that the IEP team reviewed
the continuum of LRE placement options, because
there was no discussion about the private facility or

App. 86
the PSF. Father testified, for the Principal “to assert
that the public facility would be a better program for
my son’s – for my son after seven years in a private
program based on a 20-minute observation is insincere.” TR 58:3-25.
75. There are currently five to six students at the
PSF, and they have a range of skill level. One of the
students is in high school, and the rest are from the
Home School. Two students are nonspeaking and use
alternative methods of communication, and another
two are able to do some reading, writing, and speaking.
TR 528:7 – 529:8.
76. After the IEP meeting, Parents visited the
PSF and met DRT C.T. Father testified that DRT C.T.
told him that the Principal had visited the PSF earlier
in the week and told him that Student would be attending school there. TR 42:22 – 43:19; TR 79:21-23; TR
288:10 – 289:9.
77. DRT C.T. is a licensed SPED teacher and autism consulting teacher. He has a very strong understanding of basic ABA principles that he uses to
support teams and students. TR 433:9-11; TR 534:10 –
535:21.
78. The Principal testified that she never had a
discussion about Student with DRT C.T. TR 332:8-20.
79. Father testified that the PSF could not provide the services to meet Student’s needs. The PSF has
fluorescent lighting. The staff at the private facility
had worked with Student for seven years. Student’s

App. 87
IEP included BCBA consultation, and Father did not
want or trust the ART to provide those services. TR
46:3 – 47:23; TR 2887 [sic]:25 – 288:5.
80. Parents testified that the Principal only saw
Student for 20 minutes when she made her placement
decision. Pet. Exh. 9 at p.3; TR 22:13-15; TR 36:6-10;
TR 284:21 – 285:8.
81. On March 16, 2017, Parents wrote the Principal a letter regarding their concerns with the IEP
meeting and rejected the offer of FAPE. Parents stated
the placement decision should have been done by an
informed agreement or consensus. Parents did not
know about the PSF and it was not discussed at any of
the four prior IEP meetings, and the IEP team did not
consider Student’s current placement at the private facility. Parents did not find the PSF to be appropriate
for Student or the LRE. Parents noted the harmful effect the change in placement would cause such as regression and an increase in SIBS. Parents stated the
PSF had fluorescent lighting and objected to the ART’S
involvement in Student’s program. Parents alleged
that the Principal predetermined Student’s placement
at the PSF, based on their discussions with DRT C.T.
Pet. Exh. 9; TR 53:1 – 55:18.
82. On March 17, 2017, Parents sent the IEP
team an email requesting the IEP and PWN so that
they could review the documents prior to the Spring
2017 break. The SPED teacher responded that they
were still working on the documents and they would
send them on a later date. Resp. Exh. 4 at 418.

App. 88
83. The Prior Written Notice (“PWN”) dated
March 17, 2017 stated Student would receive 1792
minutes of SPED services per week, 200 minutes of occupational therapy per month, 120 minutes of SLT per
week, and daily transportation. Student would receive
extended school year (“ESY”) services after a fivecalendar day break. Student would receive 60 minutes
of BCBA consultation six times per week, and a transition plan to a PSF to occur prior to and during the
change of placement. The transition plan would address and mitigate potential SIBs, possible regression,
and any negative effect that Student may temporarily
experience as he moves from one educational setting to
another. The transition plan would include supports to
help Student become familiar with and accept new
staff members, age matched peers, and location. The
IEP team determined that the adverse effects of a
change in placement could be adequately addressed
through careful transition planning. Pet. Exh. 10;
84. The PWN noted that the IEP team reviewed
the continuum of LRE placement options and considered Student’s educational and non-academic benefits,
and the effect of Student on the teacher and children
in the regular class. The IEP team determined Student
needed to be placed in a PSF due to his academic and
non-academic needs. The IEP could be implemented to
the fullest extent, programming would be functional,
and small group and individual instruction was available. Student would have access to similar peers, opportunities to integrate into the community, and would
develop functional life and (cooperative) skills. Student

App. 89
would be educated among peers with disabilities, and
he would participate with disabled peers during all
school hours in a PSF. Student would have opportunities to interact with non-disabled peers during community outings. Pet. Exh. 10;
85. The PWN noted that Parents expressed concern that Student would regress in another educational setting, and his SIBs, aggression towards others
and OCD behaviors could potentially increase. It listed
Parents’ concerns when Student previously attended a
DOE elementary school. He has attended the private
facility for seven years, and he is familiar with the people there. They stated that Student has a negative reaction to fluorescent lights, smells, and cleaning
chemicals. Parents also had strong opposition towards
the ART and did not want her working with Student.
Parents noted they did not want Student to be around
children with disabilities such and Down syndrome,
because it impacts his self-esteem. Pet. Exh. 10;
86. On March 24, 2017, the Principal wrote a letter to Parents regarding the March 16, 2017 IEP meeting and their letter. The Principal sent the letter, the
March 16, 2017 IEP, PWN, and a conference announcement for March 29, 2017 to develop Student’s transition plan to Parents via email. Pet. Exh. 12.
87. The Principal stated the offer of FAPE was
made after thorough discussions by the IEP team, including Parents. Placement was never predetermined,
and the offer of FAPE at the PSF was based on the LRE
discussion. Student’s IEP could be fully implemented

App. 90
in a PSF, and the staff that would be implementing the
program fully met the credentials and licensure required by their professions. She stated that they
wanted to work with Student and his current educational staff to develop a plan to mitigate any potential
negative effects as he transitions from one setting to
another. She offered three meeting dates at the end of
March 2017 to develop a transition plan. Resp. Exh. 4
at 378-416.
88. On March 24, 2017, Parents received the final IEP and PWN via email. Pet. Exh. 8, 10 -12; TR
163:17 – 166:3.
89. On March 28, 2017, the SPED teacher sent
an email to Parents to confirm their attendance [sic] a
transition planning meeting. The meeting was scheduled for March 29, 2017; however, she also offered
March 30 and 31, 2017. Resp. Exh. 4 at 376.
90. On March 29, 2017, the SPED teacher sent
an email to Parents stating that she was “sorry” that
they did not attend the meeting that day to create an
effective transition plan. She again offered March 30
and 31, 2017. Resp. Exh. 4 at 374.
91. On March 31, 2017, the SPED teacher sent
an email to Parents again stating that she was “sorry”
that they did not attend any of the three transition
plan meetings. She noted, “your participation is highly
encouraged and vital to success.” She provided meeting
dates on April 13 and 18, 2017. Resp. Exh. 4 at 372.

App. 91
92. On March 31, 2017, Parents filed their original Request with the DOE. Ms. Comeau noted that the
Petitioners were in Israel and were unable to participate in any meetings until they returned. She asked
that meetings not be scheduled until the week of April
24, 2017 so that Parents could participate. Resp. Exh.
1 at 21-26.
93. BCBA K.G. started working with Student in
June 2017. TR 237:19-21.
94. BCBA K.G. testified that Student has transition issues. Transitions occurred when Student walked
from one room to another room or community setting,
or when he switched to a non-preferred activity or staff
member. He would pace, flap his hand, shout, and become noncompliant. He would move objects around
and become agitated if someone moves them back. He
would arrange his shoes multiple time or be focused on
closing doors. TR 237:22 – 238:21.
95. BCBA K.G. testified that Student has made
progress at the private facility and is receiving an educational benefit there. He has made progress in his
public safety goals, matching colors, and fine motor academic goals working on the computer. TR 243:1-17.
96. BCBA K.G. testified that if Student were to
be placed in a new program without a transition plan,
there would be immediate academic and communication regression and an increase in challenging behavior and noncompliance. There would be a negative
impact if Student were to be placed in a program without higher functioning children with ASD, because

App. 92
there would be less social interactions and modeling.
TR 244:11 – 245:25.
IV. CONCLUSIONS OF LAW
A. Burden of Proof
The Supreme Court held in Schaffer that “[t]he
burden of proof in an administrative hearing challenging an IEP is properly placed upon the party seeking
relief.” Schaffer v. Weast, 546 U.S. 49, 126 S.Ct. 528, 163
L.Ed.2d 387 (2005). “The Court concluded that the burden of persuasion lies where it usually falls, upon the
party seeking relief.” Id. at 535; see also Stringer v. St.
James R–1 Sch. Dist., 446 F.3d 799, 803 (8th Cir.2006)
(following Schaffer in context of claim that IEP was not
being implemented). Neither Schaffer nor the text of
the IDEA supports imposing a different burden in IEP
implementation cases than in formulation cases.
B. IDEA Requirements
The Code of Federal Regulations (“CFR”) section
300-101 and the Hawai‘i Administrative Rules
(“HAR”), Title 8, Chapter 60, requires that Respondents make available to students with a disability an
offer of FAPE that emphasizes special education and
related services designed to meet their unique needs.
In Board of Education v. Rowley, 458 U.S. 176
(1982), the Court set out a two-part test for determining whether Respondent offered a FAPE: 1) whether
there has been compliance with the procedural

App. 93
requirements of the IDEA; and 2) whether the IEP is
reasonably calculated to enable the student to receive
educational benefits. Rowley 458 U.S. at 206-207. Respondent is not required to “maximize the potential” of
each student; rather, Respondent is required to provide
a “basic floor of opportunity” consisting of access to specialized instruction and related services which are individually designed to provide “some educational
benefit.” Rowley 458 U.S. at 200.
However, the United States Supreme Court recently determined in Endrew F. v. Douglas County
School Dist., 137 S.Ct. 988 (2017) that the educational
benefit must be more that de minimus. The Court held
that the IDEA “requires an educational program reasonably calculated to enable a child to make progress
appropriate in the light of the child’s circumstances.”
Endrew 137 S.Ct. at 1001. Similarly, the Hawaii District Court held that the IEP must be tailored to the
unique needs of the child and reasonably designed to
produce benefits that are “significantly more than de
minimus, and gauged in relation to the potential of the
child at issue.” Blake C. ex rel Tina F. v. Hawaii Dep’t
of Educ., 593 F.Supp.2d 1199, 1206 (D. Haw. 2009).
Under the IDEA, procedural flaws do not automatically require a finding of a denial of a FAPE. However,
procedural inadequacies that result in the loss of educational opportunity or seriously infringe on the parents’ opportunity to participate in the IEP formulation
process clearly result in the denial of a FAPE. W. G. v.
Board of Trustees of Target Range School District, 960
F.2d 1479 (9th Cir. 1992).

App. 94
The mechanism for ensuring a FAPE under the
IDEA is through the development of a detailed, individualized instruction plan known as an Individualized Education Program (“IEP”) for each child. 20
U.S.C. §§ 1401(9), 1401(14), and 1414(d). The IEP is a
written statement, prepared at a meeting of qualified
representatives of the local educational agency, the
child’s teacher, parent(s), and where appropriate, the
child. The IEP contains, in part, a statement of the present levels of the child’s educational performance
(“PLEP”), a statement of the child’s annual goals and
short-term objectives, and a statement of specific educational services to be provided for the child. 20 U.S.C.
§ 1401(19). The IEP is reviewed and, if appropriate, revised, at least once each year. 20 U.S.C. § 1414(d). The
IEP is, in effect, a “comprehensive statement of the educational needs of a handicapped child and the specially designed instruction and related services to be
employed to meet those needs.” Burlington v. Dep’t of
Educ. Of the Commonwealth of Massachusetts, 471
U.S.-359, 368, 105 S.Ct. 1996, 2002 (1985).
An IEP must be tailored to the unique needs of the
child and reasonably designed to produce benefits that
are “significantly more than de minimus, and gauged
in relation to the potential of the child at issue.” Blake
C. ex rel Tina F. v. Hawaii Dep’t of Educ., 593 F.Supp.2d
1199, 1206 (D. Haw. 2009). Lastly, an IEP must be evaluated prospectively as of the time it was created. Retrospective evidence that materially alters the IEP is
not permissible. R.E. v. New York City Dep’t of Educ.,
694 F.3d 167 (2012).

App. 95
C. Whether the March 16, 2017 IEP Appropriately Offered Student a FAPE.
To analyze whether the DOE’s offer of FAPE
through the March 16, 2017 IEP was appropriate, Student’s individual needs at the time the IEP was created
and Parent participation must be considered and evaluated. The undersigned Hearings Officer has reviewed
the recordings of the February 22, 2017, February 24,
2017, March 13, 2017, March 15, 2017, and March 16,
2017 IEP meetings in their entirety. Resp. Exh. 7 at
1005-1009.
1. Whether the DOE predetermined
Student’s placement at the DOE PSF.
Petitioners allege that DOE failed to provide Student with a FAPE because is [sic] blocked Parents’ participation in the March 16, 2017 IEP meeting and
predetermined Student’s placement. The recording of
the March 16, 2017 IEP meeting does not support this
contention.
“Among the most important procedural safeguards [in the IDEA] are those that protect the parents’ right to be involved in the development of the
child’s educational plan.” Amanda J. v. Clark County
Sch. Dist., 267 F.3d 877, 882 (9th Cir.2001). The IDEA
ensures that parents have the opportunity to participate in meetings and examine records regarding the
child’s educational placement. 20 U.S.C. § 1415(b). The
Court in Miller v. Monroe Sch. Dist., WL 5478149, at
*5 (W.D. Wash. Sept. 17, 2015) stated,

App. 96
“A school district violates IDEA procedures if
it independently develops an IEP, without
meaningful parental participation, and then
simply presents the IEP to the parent for ratification.” Ms. S. v. Vashon Island Sch. Dist.,
337 F.3d 1115, 1131 (9th Cir.2003). In other
words, the District cannot enter an IEP meeting with a “take it or leave it” attitude. Id.
However, a parent does not have veto power
over individual provisions of the IEP. Id.
A school district violates the IDEA if it predetermines
placement for a student before the IEP is developed or
steers the IEP to the predetermined placement. W.G.
v. Bd. of Tr. of Target Range Sch. Dist. No. 23, 960 F.2d
1479, 1484 (9th Cir.1992), superseded by statute on
other grounds, as recognized in R.B. v. Napa Valley
Unified Sch. Dist., 496 F.3d 932 (9th Cir.2007); see also
Spielberg v. Henrico Cnty. Pub. Schs., 853 F.2d 256,
258-59 (4th Cir.1988). Predetermination violates the
IDEA because the Act requires that the placement be
based on the IEP, and not vice versa. Spielberg, 853
F.2d at 259.
Petitioners argue that placement should have
been discussed at the [sic] throughout the five IEP
meetings. A discussion on placement cannot occur until the IEP is developed, because appropriate placement can only be based on the IEP. Id. The DOE
properly waited until the IEP was developed before it
determined Student’s appropriate placement. The IEP
was specifically tailored to fit the Student’s unique
needs, prior to the determination that Student could
be offered a FAPE at the Home School.

App. 97
At the hearing Mother testified that Student’s
placement was predetermined because the IEP team
did not want to list specific streets or names of stores
in the IEP. It is true that Mother requested the IEP
team to include specific names of streets and stores in
the IEP at the March 15, 2017 IEP meeting. However,
it was explained to Mother at the IEP meeting why it
could not be done and she accepted their response. The
Principal testified that specific places are not listed in
the IEP, because the IEP should be implemented at
any place. The goal should state Student is able to
cross the street, not a “particular street.” There is no
evidence to support Petitioners’ claim of predetermination from the IEP team’s failure to include specific
names of streets and stores.
Mother also testified that the IEP team’s offer to
include transportation services in the IEP is further
evidence of predetermination. Mother testified that at
the March 15, 2017 IEP meeting, DRT S.R. told Parents, “you will need transportation [services], you
should take it.” Mother declined the services and
stated that they did not need transportation, because
Parents drove Student to the private facility. Mother
testified that DRT S.R. insisted that she accept the
transportation services.
The audio recording of the IEP meeting is quite
different from Mother’s recollection, calling her credibility into question. At the March 15, 2017 IEP meeting, DRT S.R. discussed busing as a transportation
option. Parents said that Student would need an aid
when riding the bus, and the IEP team said that this

App. 98
would be addressed through a transition plan. When
Mother questioned why transportation services were
not in Student’s previous IEP DRT S.R. stated that this
was a SPED service offered to all eligible students, and
she preferred to include it in the IEP. Father was not
opposed to this, and stated that Student needed to
learn how to ride the bus. There was no evidence to
support Petitioners’ claim of predetermination from
the IEP team’s offer of transportation services.
Petitioners claim that the DOE blocked them from
participating in the placement decision and rely heavily on Doug C. v. Hawaii Dept. of Educ., 720 F.3d 1038
(9th Cir. 2013). The court in Doug C. stated, “[t]he parents of a child with a disability must be afforded an
opportunity to participate in meetings with respect to
(i) the identification, evaluation, and educational
placement of the child; and (ii) the provision of FAPE
to the child.” Id. at 1044. However, the facts in Doug C.
are readily distinguishable, because the parent was
not present at the IEP meeting, and the DOE held the
meeting without him.
The IDEA requires the DOE to provide Parents
with an opportunity for meaningful participation during the development of an IEP; however, the Act does
not explicitly vest parents with a veto power over any
proposal or determination advanced by the educational agency regarding a change in placement. See
Burlington School Committee, 105 S.Ct. at 2002; 20
U.S.C. §1401(19) (1982). Although a consensus is ideal,
if a consensus cannot be reached, the school has a “duty
to formulate the plan to the best of its ability in

App. 99
accordance with information developed at the prior
IEP meetings, but must afford the parents a due process hearing in regard to that plan.” Doe by Gonzales v.
Maher, 793 F.2d 1470, 1490 (9th Cir. 1986) aff ’d as
modified sub nom. Honig v. Doe, 484 U.S. 305, 108 S. Ct.
592, 98 L. Ed. 2d 686 (1988). “The mere existence of a
difference in opinion between a parent and the rest of
the IEP team is not sufficient to show that the parent
was denied full participation in the process, nor that
the DOE’s determination was incorrect.” Laddie C. ex
rel. Joshua C. v. Dept of Educ., 2009 WL 855966, at *4
(D. Haw. Mar. 27, 2009). If the Parents do not agree
with the DOE’s offer, they do not have to accept it. The
Parents have the right to file a due process complaint
pursuant to HAR §860-61.
When the IEP team discussed the option of placement in a PSF at the March 16, 2017 IEP meeting, Parents readily participated and the discussion lasted 27
minutes. When the Principal indicated that the offer of
FAPE could be made at the PSF, Parents requested further discussion. The Principal complied, and Mother
handed out documents regarding LRE to the IEP team.
They discussed Mother’s documents for approximately
four minutes, and the DOE SLP requested a short
break. After the break, the discussion lasted another
13 minutes. Parents raised their concerns about the
ART, stated she was unethical, and they had another
current complaint about her. Father stated there’s “no
way in hell I’m going to have her in charge of my kid’s
program.” He further stated that if he had his way, the
ART would not have her BCBA license within a few

App. 100
months and the PSF would have to be run by someone
else. Father said the PSF was a “joke” and was not an
improvement over the private facility. He accused the
Principal of having “marching orders” from the DOE
district to cut costs. The Principal replied she did not
have “marching orders” and accepted the PSF to be the
LRE. Principal made an offer of FAPE at the PSF. Parents argued that all the placement options were not
discussed and Principal replied that all the options,
such as Home Hospital did not have to be discussed.
Parents rejected the offer of FAPE and said they did
not have ample discussion.
Father testified that Parents fully participated in
the IEP in “everything except the placement decision;
that was never discussed.” This statement is simply
not true and calls his credibility into question. Father
also argued that his conversation with DRT C.T. was
evidence that Student’s placement was predetermined.
He testified that DRT C.T. told him that the Principal
had visited the PSF earlier in the week and told him
that Student would be attending school there. The
Principal testified that she never had a discussion
about Student with DRT C.T. and that she had visited
the PSF when they had an open house prior to all of
Student’s IEP meetings. The Hearings Officer finds the
Principal’s testimony to be more credible.
Father also testified that he had never heard of the
PSF until an hour and 20 minutes into the fifth IEP
meeting. This is not true. At the IEP meeting, he did
not ask specifics about the school. Instead he asked, “is
it open?” The Principal DRT S.R. said “yes.” Then

App. 101
Father stated, “Lesley said they didn’t have staff.”
Clearly, he was aware of the PSF, again calling his
credibility into question.
Similarly, Mother testified that they were not able
to actively participate in the placement discussion, because they had no information about the PSF. She testified that [sic] did not know where the PSF was or if
it was open. However, at the IEP meeting Mother
stated that she was not sure if the community activities could be implemented and if his individual needs
could be met there, and noted the PSF’s location at
“Lipoa.” Obviously, Mother knew the general location
of the PSF, again calling her credibility into question.
The Hearings Officer finds the DOE witnesses to
be credible. The Hearings Officer further finds that the
DOE did not block Parents’ participation in the March
16, 2017 IEP meeting or predetermine Student’s placement. The Hearings Officer further finds that the DOE
offered Student a FAPE that was appropriately designed to convey Student a meaningful educational
benefit.
2. Whether the DOE PSF is the Least
Restrictive Environment.
Petitioners allege that the DOE failed to provide
Student with a FAPE because the change in Student’s
educational placement to the PSF is not the LRE. Respondents argue that the PSF is the LRE because the
IEP could be implemented there and Student would

App. 102
have access to general education peers at the Home
School.
The education of a disabled child should take place
in the least restrictive environment. Haw. Admin. R.
§ 8-60-2 states that the LRE “means to the maximum
extent appropriate, educating students with disabilities, including student in public or private institutions
or other care facilities, with students who are nondisabled and removing students with disabilities from
the regular educational environment only if the nature
or severity of the disability is such that education in
regular classes with the use of supplementary aids and
services cannot be achieved satisfactorily.” See also 20
U.S.C. § 1412(a)(5)(A) (“To the maximum extent appropriate, children with disabilities . . . are [to be] educated with children who are not disabled. . . .”) and 34
CFR § 300.114(a)(2).
“While every effort is to be made to place a student
in the least restrictive environment, it must be the
least restrictive environment which also meets the
child’s IEP goals.” County of San Diego v. Cal. Special
Educ. Hearing Office, 93 F.3d 1458, 1468 (9th Cir.
1996). In determining the least restrictive environment, this Court considers the following four factors:
“(1) the educational benefits of placement full-time in
a regular class; (2) the non-academic benefits of such
placement; (3) the effect [Student] had on the teacher
and children in the regular class; and (4) the costs of
mainstreaming [Student].” Sacramento City Unified
Sch. Dist. v. Rachel H., 14 F. 3d 1398, 1404 (9th Cir.
1994). In applying the facts of this case to the LRE

App. 103
standard, the PSF would provide Student with the
LRE. The IEP team’s LRE discussion at the March 16,
2017 IEP meeting followed the first three factors listed
in Rachel H. The IEP team did not consider the cost of
mainstreaming Student into the Home School; however, the Hearings Officer finds that the cost of Student’s education played no role in the Principal’s
decision-making process.
At the March 16, 2017 IEP meeting, the IEP team
discussed the LRE continuum and used a worksheet as
a demonstrative aid. The worksheet was originally projected at the meeting, but after there was an issue with
the computer, the IEP team worked off of the hard copy
of the worksheet instead. The Principal facilitated the
discussion and the SPED teacher wrote notes on the
worksheet.
The IEP team started the LRE discussion with
placement in a general education setting and reviewed
the three LRE factors. DRT S. R. said that generally
speaking, students respond to being with their peers.
Father stated that being with peers would have an adverse effect on Student. Student keeps a distance from
neurotypical peers, because they are upsetting to him.
If Student was placed in a regular classroom, he would
not work, there would be no educational benefit, and
he would be disruptive to other students. DRT S.R.
asked if Student needed a smaller more controlled environment with similarly developing peers. Father
stated that Student likes to be with children with ASD,
and they do not have to be on the same developmental

App. 104
scale. The private facility has children who are higher
functioning and lower functioning than Student.
Student has not had much interaction with children with Down syndrome or other disabilities, because they have impacted his self-esteem in the past.
Father stated Student does not socialize with neurotypical peers and to be in a general education setting
would cause overstimulation and Student would be
disruptive. Father stated that Student benefits from
being with children with ASD. The Principal rejected
placement in the general education setting based on
their discussion.
The IEP team then discussed placement in general and special education setting. The IEP team
stated Student could be on a diploma path there.
Mother stated Student could do that online. Father
stated it would be “ridiculous” for Student to be in general education; he would receive no benefit, and it
would be detrimental for him and the class. Father also
stated that Student would not benefit from the SPED
classroom because of the close proximity to the neurotypical peers on campus. He stated that they had to
ask the Charter School not to be so close to the outside
of the private facility’s building, because in [sic] causes
Student to have negative reactions inside the building.
Mother stated that they had to ask the Charter School
to stop “encroaching” on the private facility’s space.
When the Charter School would hold “morning circle,”
Student would scream when he walked by. The Principal rejected placement in the general education setting
based on their discussion. Father agreed.

App. 105
The IEP team next discussed placement in the
special education setting. The SPED teacher noted
that they could implement aspects of Student’s IEP
[sic] this setting. Mother stated that if Student is doing
well in one place, with people that know him and have
a history with him, he should not be moved. She said
to move him from one building to another for the
“school’s convenience” would not serve Student’s
unique needs. She stated it was not “one-size-fits-all”
and referenced the worksheet. The Principal responded that they needed to discuss the three factors
for each placement option. Mother felt that if the team
was talking about a transition or change, it would be
more restrictive for Student’s unique needs because he
would need more than one skills trainer. The Principal
responded that they had not made a decision yet, and
they were still going through the LRE continuum and
were focusing on Student’s needs. The team discussed
the large environment and safety concerns for Student
at the Home School. It would be overstimulating. Father said when Student was in a DOE School previously, he was isolated from his peers, did not have his
needs met, and it was not beneficial. Mother found it
to be more restrictive. The SPED teacher noted that if
Student attended the Home School, he would be a
member of the SPED classroom. The SPED program
was a very small group of children, some of whom had
ASD. The Principal rejected placement in the general
education setting based on their discussion. Father
thanked the Principal.

App. 106
The IEP team then discussed placement at a PSF.
Father asked, “is there such?” The Principal and DRT
S.R. stated there was. Father asked, “is it open?’ ” The
Principal DRT S.R. said “yes.” Father stated, “Lesley
said they didn’t have staff.” DRT S.R. explained the
PSF had staff, there were children attending, and they
could set up a tour any time for them. Parents were
told the teacher there was DRT C.T. and the BCBA was
the ART. The SPED teacher said the IEP could be implemented there, specific functional programming
could also be implemented, it had a small group of students, and individual learning opportunities. Mother
said the “downside” was they had filed a “state complaint” against the ART, and “that would be a problem.”
Father stated he couldn’t speak about the facility, because it was brand new. Student’s program at the private facility was seven years old, and he had familiar
people there that worked with him and knew his issues. Father said that Student has extreme needs, and
placement at the PSF was not in his best interest. He
stated that if Student was not doing well in a DOE
SPED program, then he would “probably send him to a
public separate facility” before a private facility. Father
focused on the detrimental and harmful effects that
would occur. DRT S.R. explained that the PSF focused
on functional skills, CBI, and cooperative skills.
Mother stated that she was not sure if the community
activities could be implemented and noted the PSF’s
location at “Lipoa” and if his individual needs could be
met there. The SPED teacher said that the IEP could
be implemented at the PSF and it would require a
transition plan. As stated supra, Parents requested

App. 107
further discussion when the Principal indicated that
the offer of FAPE could be made at the PSF. The IEP
team complied.
Mother testified that when the IEP team discussed placement in the LRE, the DOE used a “backwards pyramid” as a demonstrative aid. The audio
recording of the March 17, 2017 [sic] does not match
Mother’s description; rather, the SPED teacher’s testimony that the IEP team used a worksheet was more
credible. The worksheet that the IEP team used was
entitled “Least Restrictive Environment; Justification
for Placement.” The SPED teacher’s notes of the LRE
discussion in factors one through three are listed below
and are categorized at positive (“+”) or negative (“-”).
The blank worksheet stated:
In conjunction with HAR Chapter 60, the team
must consider the following factors:
1. The educational benefits of placement in a regular class;
2.

The non-academic benefits of such placement;

and
3. The effect of the student on the teacher and
children in the regular class.

REJECT

General Education Setting
(80% or more of the school
day)
General Education and
Special Education Setting

ACCEPT

Public Separate Facility

Private Separate
Facility
Public Residential
Facility
Private Residential
Facility
Homebound/Hospital

REJECT

Special Education Setting

REJECT

DECISION

PLACEMENT

App. 108

+ IEP implemented
+ Functional Programming with
small group and individual

+ Implement aspects of IEP

- Curriculum not meaningful
+ Path to diploma

Factor 1
+ Respond to being with peers
- Needs smaller environment

- Safety Concerns
- Large environment
- Overstimulated
- Isolated
- Transition to new staff/
program/location
+ Similar peers
+ Access to the community
+ Functional life skills
+ Cooperative skills
+ Community-based
lessons
+ Longevity of current
program

Negative reaction to
neurotypical peers

RATIONALE
Factor 2
Overstimulated and
unable to

+ Member of Classroom
+ No foreseeable
negative effects on
teacher and children
+ Group of friends

Behaviors and
accommodation/
Modifications impede
+ Member of classroom

Factor 3
Behaviors impede others

App. 109
The audio recording of the IEP meeting was a direct
reflection of the worksheet and the SPED teacher’s
notes.
Father disagreed that the IEP team reviewed the
continuum of LRE placement options, because there
was no discussion about the private facility or the PSF.
Father testified, for the Principal “to assert that the
public facility would be a better program for my son’s
– for my son after seven years in a private program
based on a 20-minute observation is insincere.” However, the evidence showed that the Parents discussed
the private facility throughout all the IEP meetings.
Further, the DOE had observed Student several times
at the private facility, not just for 20 minutes. Parents
were aware of these observations, because they had to
authorize them.
The SPED teacher testified that she had observed
Student at the private facility in the 2015-2016 and
2016-2017 school years to determine if Student’s IEP
was being implemented. On February 5, 2016, the
SPED teacher observed Student at the private facility
for one hour and 15 minutes. During that time, two dividers separated Student from the rest of the class.
When the class exited the room for an outside activity,
Student remained behind and continued with his table
activity, isolated from his peers. The SPED teacher also
observed Student at the private facility on May 6,
2016, May 18, 2016, August 22, 2016, and October 4,
2016. On December 13, 2016, the SPED teacher observed Student in the community stopping on the road
and going to Times Supermarket. Times Supermarket

App. 110
had fluorescent lighting. The SPED teacher never observed Student interacting with typically developing
peers, higher-functioning children with ASD, or with
general education students at the Charter School.
The IEP stated Student would “participate with
disabled peers during all school hours in a public separate facility. He will have opportunities to interact
with non-disabled peers during community outings.”
The PSF serves students with ASD and those that
need a more restrictive environment than the Home
School. There are currently five to six students at the
PSF, and they have a range of skill level. One of the
students is in high school, and the rest are from the
Home School. Two students are nonspeaking and use
alternative methods of communication, and another
two are able to do some reading, writing, and speaking.
The curriculum at the PSF has an “off-site component,”
and students will be able to regularly practice what
they learn in a variety of community settings. The PSF
provides more opportunities for Student to be educated
with non-disabled peers.
In K.D. v. DOE, 665 F.3d 1110 (9th Cir. 2011), the
facts showed that the DOE school Pearl Harbor Kai
was more appropriate than the private facility, Loveland Academy as the LRE for K.D. K.D.’s 2007 and
2008 IEPs placed him at Pearl Harbor Kai and included provisions that he would have the opportunity
to interact with non-disabled peers. In contrast, Loveland Academy placed K.D. in a classroom with only
students who had mental health or learning disabilities. K.D.’s Loveland placement did not square with

App. 111
one of the main purposes behind the IDEA—to combat
the “apparently widespread practice of relegating
handicapped children to private institutions or warehousing them in special education classes.” N.D. v.
DOE, 600 F.3d 1104 at 1115 (9th Cir. 2010). Thus, the
evidence supported the district court’s decision that
K.D.’s 2007 and 2008 IEPs offered K.D. appropriate
placement at Pearl Harbor Kai.
The facts of K.D. are similar to the facts of this
case. Here, Parents are requesting that Student be
placed at the private facility. The private facility currently has 12 full-time students that have high functioning ASD.6 No general education students attend
the private school. Their interaction with non-disabled
peers is minimal and not provided on a regular basis.
BCBA K.G. testified that there are no planned inclusion activities with neurotypical peers from other
schools. Interaction with neurotypical peers in the
community is not coordinated. Student will go to place,
such as a park, in anticipation that other children will
be there. BCBA C.H. stated she was not aware of any
planned inclusion activities with the neuro-typical
peers at the Charter School that share the same campus as the private facility. The private facility does not
have a sufficient level of socialization, because the interaction with non-disabled peers is not frequent
enough and not planned.

6

At the March 16, 2017 IEP meeting, he stated that the private facility has children who are higher functioning and lower
functioning than Student.

App. 112
Petitioners claim that Student does have access to
neurotypical peers at the private facility because they
share a campus with the Charter School. However, the
testimony and evidence contradict this claim. In an
email dated March 14, 2017, Father stated that the
Charter school “politely agreed to move their morning
circle assembly as they had noted that it was causing
self-injurious behaviors for my son due to their meeting proximity.” Similarly, at the March 16, 2017 IEP
meeting, Father stated that they had to ask the Charter School not to be so close to the outside of the private
facility’s building, because in [sic] causes Student to
have negative reactions inside the building. Mother
stated that they had to ask the Charter School to stop
“encroaching” on the private facility’s space. When the
Charter School would hold “morning circle,” Student
would scream when he walked by. The Principal rejected placement in the general education setting
based on their discussion. Father agreed.
While it is certainly understandable the Parents
want a Student to remain at the private facility because of his progress there, compliance with the IDEA
does not require school districts to provide the “absolutely best” or “potential maximizing” education. J. W,
626 F.3d at 439 (citation and internal quotation marks
omitted). School districts are required to provide only
a “ ‘basic floor of opportunity.’ ” Id. (quoting Rowley, 458
U.S. at 201. The FAPE need only be “appropriately designed and implemented so as to convey [the] [s]tudent
with a meaningful benefit.” Id. at 433 (citations and
quotation marks omitted). The Court has further held

App. 113
that the IDEA “requires an educational program reasonably calculated to enable a child to make progress
appropriate in the light of the child’s circumstances.”
and that the “educational benefit must be more that de
ininimus.” Endrew 137 S.Ct. at 1001. The IEP was specifically tailored to meet Student’s unique needs and
provide him with a meaningful educational benefit and
to make progress, and the IEP can be implemented at
the PSF with a transition plan.
The IEP included a transition plan to a PSF. The
transition plan would occur prior to and during Student’s change of placement. The IEP stated, “[b]ecause
student had been in private separate facility for some
time, a transition plan will be implemented to mitigate
any potential harmful impact him [sic] moving to a less
restrictive environment and transitioning to a new
school. Factors to consider for transition will include
new people, new location, self-injurious behaviors, potential regression, access to the community, new program routines.” The DOE tried to schedule a transition
plan meeting with Parents, but they were out of the
country. Soon thereafter, the Request was filed.
The private facility offers Student far less opportunity to socialize with non-disabled peers then the
PSF. The Hearings Officer finds that the IEP team had
an adequate discussion regarding LRE. The Hearings
Officer further finds that the PSF, with a transition
plan, is the LRE for Student.

App. 114
2

Whether Petitioners Are Entitled to
Relief.

The Hearings Officer has determined that Petitioners have not shown that the March 16, 2017 IEP
denied Student a FAPE. Therefore, the issue of the appropriateness of the private facility does not need to be
addressed. The Hearings officer finds that Petitioners
are not entitled to reimbursement or compensatory education.
V.

DECISION

Based upon the above-stated findings of fact and
conclusions of law, the Hearings Officer concludes that
Petitioners have not met their burden and have not
shown procedural or substantive violations of the
IDEA denying Student a FAPE.
Respondents shall be deemed the prevailing party
in this matter.

App. 115
RIGHT TO APPEAL
The parties have the right to appeal this decision
to a court of competent jurisdiction within thirty (30)
days after receipt of this decision.
DATED: Honolulu, Hawai‘i, DEC 20 2017
/s/ [Illegible]
ROWENA A. SOMERVILLE
Administrative Hearings
Officer Department of
Commerce and Consumer Affairs
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

STUDENT, by and through his Parents vs. DOE;
DOE-SY1617-067A LEGEND; FINDINGS OF FACT,
CONCLUSIONS OF LAW AND DECISION

App. 116
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
J.G., by and through his
Parents, Howard and
Denise Greenberg; et al.,
v.

No. 18-16538

D.C. No.
1:17-cv-00503-DKW-KSC
Plaintiffs-Appellants, District of Hawaii,
Honolulu

STATE OF HAWAII,
Department of Education;
et al.,

ORDER
(Filed Aug. 21, 2019)

Defendants-Appellees.
Before: THOMAS, Chief Judge, and CALLAHAN and
CHRISTEN, Circuit Judges.
The panel has unanimously voted to deny PlaintiffsAppellants’ petition for panel rehearing and petition
for rehearing en banc.
The full court has been advised of PlaintiffsAppellants’ petition for rehearing en banc, and no
judge of the court has requested a vote on the petition
for rehearing en banc. Fed. R. App. P. 35.
The petition for rehearing and the petition for rehearing en banc are denied.

